                  Report No. D-2008-097                                               May 23, 2008




               Hurricane Relief Effort Costs on the Navy
                  Construction Capabilities Contract




                                                             SPECIAL WARNING
The report contains contractor information that may be company confidential or proprietary. Section 1905, title 18, United States Code, and
section 423, title 41, United States Code, provide specific penalties for the unauthorized disclosure of company confidential or proprietary
information. You must safeguard this report in accordance with DoD Regulation 5400.7-R. This document is exempt from the mandatory
disclosure under the Freedom of Information Act exemptions 3, 4, and 5.
 Additional Copies

 To request copies of this report, contact Mr. Henry F. Kleinknecht at (703)
 604-9324 (DSN 664-9324) or Mr. Patrick J. Nix at (703) 604-9332 (DSN
 664-9332).

 Suggestions for Future Audits

 To suggest ideas for or to request future audits, contact the Office of the Deputy
 Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
 604-8932. Ideas and requests can also be mailed to:

                           ODIG-AUD (ATTN: Audit Suggestions)
                           Department of Defense Inspector General
                           400 Army Navy Drive (Room 801)
                           Arlington, VA 22202-4704




Acronyms
BMS                  Business Management System
CMARK                Commercial Marketing Corporation
CONCAP               Construction Capabilities
CPPC                 Cost-Plus-Percentage-of-Cost
DCAA                 Defense Contract Audit Agency
FAR                  Federal Acquisition Regulation
GAO                  General Accountability Office
GCC                  Global Contingency Construction
IG                   Inspector General
KBR                  Kellogg, Brown, and Root
NAVFAC               Naval Facilities Engineering Command




                       FOR OFFICIAL USE ONLY
                                          INSPECTOR GENERAL

                                        DEPARTMENT OF DEFENSE

                                           400 ARMY NAVY DRIVE

                                      ARLINGTON, VIRGINIA 22202-4704





                                                                                  May 23, 2008

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
               NAVAL INSPECTOR GENERAL

SUBJECT: Report on Hurricane Relief Effort Costs on the Navy Construction
         Capabilities Contract (Report No. D-2008-097)


        We are providing the report for review and comment. This audit is a follow-on to
our audit of the procedures used by the Navy to award the Construction Capabilities
contract. We considered comments from the Naval Facilities Engineering Command on
a draft of this report when preparing the final report.

       DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The Naval Facilities Engineering Command comments were partially responsive. We
request additional comments on Recommendation C. by June 25,2008.

        If possible, please send management comments in electronic format (Adobe
Acrobat file only) to patrick.nix@dodig.miI. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).

       We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Henry F. Kleinknecht at (703) 604-9324 (DSN 664-9324) or Mr. Patrick Nix at
(703) 604-9332 (DSN 664-9332). See Appendix E for report distribution. The team
members are listed inside the back cover.




                                             Richard B. Jolliffe

                                       Assistant Inspector General

                                   Acquisition and Contract Management



                                   SPECIAL WARNING
The report contains contractor information that may be company confidential or proprietary.
Section 1905, title 18, United States Code, and section 423, title 41, United States Code, provide
specific penalties for the unauthorized disclosure of company confidential or proprietary
information. You must safeguard this report in accordance with DoD Regulation 5400.7-R. This
document is exempt from the mandatory disclosure under the Freedom ofInformation Act
exemptions 3, 4, and 5.



                                   FOR OFFICIAL USE ONLY
               Department of Defense Office of Inspector General
Report No. D-2008-097                                                        May 23, 2008
  (Project No. D2006-D000CH-0110.000)

                   Hurricane Relief Effort Costs on the Navy
                     Construction Capabilities Contract

                                Executive Summary

Who Should Read This Report and Why? Acquisition and contracting personnel
within DoD and the Military Departments who award contracts for rapid emergency
construction and engineering services should read this report because it concerns
inadequate cost controls and the use of an illegal cost-plus-percentage-of-cost system of
contracting.

Background. This audit is a follow-on to our audit of the award of the Navy
Construction Capabilities (CONCAP) contract to Kellogg, Brown, and Root (KBR). The
Naval Facilities Engineering Command (NAVFAC) Atlantic issued the cost-plus-award-
fee, indefinite-delivery, indefinite-quantity contract with a $500 million not-to-exceed
amount over a 5-year period to KBR on July 26, 2004. The Navy reached the contract
ceiling and issued a follow-on contract on August 4, 2006. The follow-on contract was a
cost-plus-award-fee, indefinite-delivery, indefinite-quantity, multiple-award contract that
was awarded to three contractors other than KBR. The KBR contract provided
NAVFAC customers with a rapid emergency construction and engineering services
capability. As a part of our previous audit, we found the rates paid to some
subcontractors that KBR used to supply labor to support the Hurricane Ivan recovery
effort were significantly higher than the prevailing Bureau of Labor Statistics rates for
the areas impacted by the storm. Although NAVFAC personnel provided possible
reasons for the higher rates, we determined additional review was needed before any
conclusions could be drawn about the reasonableness of the rates paid to the
subcontractors used to support natural disaster recovery efforts.

In accordance with its Disaster Preparedness Plan, NAVFAC Southeast (formerly the
NAVFAC Southern Division) assembles and deploys facilities disaster assessment teams
to the regions affected by a storm to assess the damage and develop plans to restore the
damaged military facilities to their pre-storm condition. The CONCAP contract was used
primarily to repair facilities supporting critical DoD missions and to dry-in, dry-out
(stabilize) noncritical facilities to prevent further damage.

Results. NAVFAC Southeast contracting officials did not effectively implement cost
control procedures for three CONCAP contract task orders issued to KBR for recovery
efforts associated with Hurricanes Ivan and Katrina. As a result, the Navy had no means
to measure contractor cost performance on task orders totaling more than $229 million
and was basically just monitoring the contractor’s spend rate. Establishing basic contract
forms, either the completion contract form or the term (or level-of-effort) contract form
and implementing procedures to ensure contracting officials: (1) obtain and evaluate
contractor cost estimates, (2) negotiate and base task order funding (and potential award
fee) on the target cost of work requested, and (3) track how much is spent on each task


                         FOR OFFICIAL USE ONLY
and adjust task order funding (not the award fee) to actual performance costs, would
allow the Navy to monitor how efficiently its infrastructure is repaired. In addition,
negotiating specific levels of effort for the key skills required to support the Navy’s
natural disaster recovery efforts for use until requirements can be determined would
enable the Navy to better estimate its repair costs and decrease the extent of Government
oversight required (finding A).

NAVFAC Southeast contracting officials also provided insufficient oversight of KBR’s
subcontracting efforts for the three task orders. As a result, KBR awarded sole-source or
limited competition subcontracts that paid roofers hourly rates of up to     , purchased
$4.1 million of meals and services that “should have” cost $1.7 million, and paid a
markup on material and equipment of $7.2 million that increased proportionally to
increases in material costs expended in performance, a cost-plus-percentage-of-cost
system of contracting. Establishing procedures to verify that subcontract costs are
adequately analyzed and only appropriate costs are included in labor rates and addressing
liability for excess material procured by commercial contractors would allow the
infrastructure damaged by natural disasters to be repaired more economically. In
addition, the Navy might be able to recoup as much as $8.4 million paid to KBR for an
excessive equipment lease and profit on material (finding B).

NAVFAC Southeast contracting officials also administered the three hurricane recovery
task orders as prohibited cost-plus-percentage-of-cost contracts. As a result, the award
fee available to KBR of about               increased proportionally to increases in costs
expended in performance rewarding inefficiency and non-economical performance
because higher costs meant higher profit to KBR. The Navy might be able to recoup
some fees awarded under the illegal contract provisions for work that cost in excess of
what would be considered reasonable (finding C).

NAVFAC Southeast contracting officials did not adequately support the award fee
determinations for the hurricane recovery task orders. As a result, despite numerous
performance deficiencies, the Navy authorized that KBR be paid 100, 96, and 88 percent
of the available fee on the task orders we reviewed for what appears to be marginal-to-
average performance. In addition, the Navy could not defend award fee determinations
in excess of $7.5 million for its hurricane recovery efforts. Reconciling the assessments
made by the contracting officer and the technical representatives against each other and
ensuring written statements match ratings would allow the Navy to better defend its
award fee determinations (finding D).

Review of Internal Controls. NAVFAC internal controls were not adequate. We
identified material internal control weaknesses for procurement and contract
administration relating to the cost control procedures for the CONCAP contract.

Management Comments and Audit Response. We received comments from the Naval
Facilities Engineering Command. The Assistant Commander for Acquisition generally
agreed with the report recommendations. However, the Assistant Commander non-
concurred and provided management comments that did not address Recommendation C.
relating to the Navy administering the three hurricane recovery task orders as prohibited
cost-plus-percentage-of-cost contracts. Therefore, we request the Navy to provide
additional comments to the final report on Recommendation C. by June 25, 2008.




                                             ii
                         FOR OFFICIAL USE ONLY
Table of Contents

Executive Summary                                                     i

Background                                                            1

Objective                                                             3

Review of Internal Controls                                           3

Finding
     A.   Cost Controls on the Construction Capabilities Contract     5
     B.   Subcontract Costs                                          18
     C.   Prime Contractor Costs                                     37
     D.   Award Fee Determinations                                   46



Appendixes
     A. Scope and Methodology                                        58
         Prior Coverage                                              58
     B. Task Order Awards, Modifications, and Technical Directions   60
     C. Subcontracts Reviewed                                        69
     D. Award Fee Plan                                               71
     E. Report Distribution                                          79



Management Comments
     Naval Facilities Engineering Command                            81




                       FOR OFFICIAL USE ONLY
Background
      This audit is a follow-on to our audit of the award of the Navy Construction
      Capabilities (CONCAP) contract to Kellogg, Brown, and Root (KBR). The
      Naval Facilities Engineering Command (NAVFAC) Atlantic issued the cost-plus-
      award-fee, indefinite-delivery, indefinite-quantity contract with a $500 million
      not-to-exceed amount over a 5-year period to KBR on July 26, 2004. The Navy
      reached the contract ceiling and issued a follow-on contract on August 4, 2006.
      The follow-on contract was a cost-plus-award-fee, indefinite-delivery, indefinite-
      quantity, multiple-award contract that was awarded to three contractors other than
      KBR. The KBR contract provided NAVFAC customers with a rapid emergency
      construction and engineering services capability. As a part of our previous audit,
      we found the labor rates paid to some subcontractors that KBR used to support
      the Navy’s Hurricane Ivan recovery effort were significantly higher than the
      prevailing Bureau of Labor Statistics rates for the area impacted by the storm.
      Although NAVFAC personnel provided possible reasons for the higher rates, we
      determined additional review was needed before any conclusions could be drawn
      about the reasonableness of the rates.
      Assessing the Storm Damage. In accordance with its Disaster Preparedness
      Plan, NAVFAC Southeast, formerly the NAVFAC Southern Division, assembled
      and deployed facilities disaster assessment teams to the regions affected by
      Hurricanes Ivan and Katrina to assess the damage and to develop plans to restore
      damaged military facilities to their pre-storm condition. Each team was
      composed of a team leader; structural, mechanical, electrical, civil, and
      environmental engineers; acquisition/contracting officers; and KBR personnel. In
      addition, the teams were augmented with utility, roofing, or safety specialists
      when the situation dictated. The teams also interacted with the base Public Works
      offices, the customer-base, and Naval Installation Command personnel. Figure 1
      shows the process the teams used to assess the damage and select the appropriate
      contract vehicle for repairing or replacing the facilities damaged by the storms.




                                        Facilities Disaster Team                    NAVFAC Southeast Cost
         Hurricane                                                                       Specialists
          Occurs                 Assess damage and select appropriate
                                  contract vehicle for performing the    Review damage assessments and provide
                                        various scopes of work        assessment teams with estimate of cost to repair
                                                                                damaged military facilities



      CONCAP Contract
    Restore critical missions/conduct Other Firm-Fixed-Price Contracts           Military Construction Projects
  stabilization efforts (Remove debris
      and conduct dry-in/dry-out).     Perform permanent repairs/demolish       Reconstruct demolished buildings
                                            non-repairable buildings.



      Figure 1. Process to Repair Damage From Natural Disaster


                                                     1
                             FOR OFFICIAL USE ONLY
CONCAP Contract Task Orders. The Navy issued eight task orders worth an
estimated $270 million against the CONCAP contract to support its recovery
efforts after Hurricanes Ivan and Katrina. We reviewed the three largest task
orders issued. As Table 1 shows, those task orders, issued by NAVFAC
Southeast, had a collective estimated value of more than $229 million and
represent 85 percent of estimated cost of the Navy hurricane recovery efforts.

                               Table 1. Task Orders Funding
                    Task            Task             Task
                    Order           Order            Order
                    No. 2           No. 16           No. 17              Total           Percent
  Cost
  Award Fee
  Total         $ 46,819,259     $ 84,961,021     $ 97,346,447     $ 229,126,727             100


These task orders were used to repair Navy facilities that supported critical
missions and to dry-in/dry-out (stabilize) noncritical facilities to prevent further
damage. Figure 2 shows typical tasks that KBR and its subcontractors performed.




   Remove water-damaged carpet and drywall      Apply temporary roofing to damaged roof
    (dry-out)                                    (dry-in)




   Remove debris placed outside by displaced    Build trailer park site for displaced Navy
   military personnel                           families

  Figure 2. Basic Tasks Performed by KBR

NAVFAC Southeast personnel stated that KBR performed additional tasks to
include: setting up on-site field offices to support NAVFAC Southeast forward
deployed assets; assisting in defining scopes of work and estimating repair costs;
repairing electrical and potable water distribution systems; repairing buildings;


                                         2
                   FOR OFFICIAL USE ONLY
     and providing temporary housing and meals to military, civilian, and contractor
     personnel located in areas affected by the storm.


Objective
     Our overall audit objective was to review the reasonableness of costs incurred on
     task orders for relief efforts after Hurricanes Ivan and Katrina. Specifically, we
     reviewed whether the methods and procedures used by the Navy ensured the
     Government paid fair and reasonable prices for the labor and material used to
     support the hurricane relief efforts. See Appendix A for a discussion of the scope,
     methodology, and prior coverage related to the objective.


Review of Internal Controls
     We identified material internal control weaknesses for NAVFAC as defined by
     DoD Instruction 5010.40, “Managers’ Internal Control (MIC) Program
     Procedures,” January 4, 2006. NAVFAC did not have the following internal
     controls for procurement and contract administration:

        •   a procedure to ensure contracting officials establish basic contract forms,
            either the completion form contract wherein the contractor is required to
            deliver a specified, definitive end product, or the term (or level-of-effort)
            form contract wherein the contractor is required to provide simple labor-
            hours (day, months, or years) over a designated period of time;

        •   a procedure to ensure contracting officials obtain contractor cost
            estimates, evaluate proposed prices, and negotiate and document a target
            cost and fixed fee for contract requirements that are defined in clear,
            specific, and objective terms with measurable outcomes;

        •   a procedure to ensure that contracting officials base task order funding and
            potential award fee on the target cost of the specific scopes of work that
            are requested;

        •   a procedure to verify that subcontract prices for natural disaster recovery
            efforts are adequately analyzed and only appropriate costs are included in
            the labor rate;

        •   a procedure to address liability for excess material procured by
            commercial contractors;

        •   a procedure to review all subcontracts with an estimated value of more
            than $1 million to ensure they comply with contract and statutory
            requirements; and

        •   a procedure to reconcile the assessments made by the contracting officer
            and technical representatives against each other and ensure written
            statements match ratings for award fee determinations.


                                          3
                      FOR OFFICIAL USE ONLY
Implementing Recommendations A.1.a., A.1.b.1.–4., B.2., and D. will improve
NAVFAC procurement and contract administration procedures and could result in
the recovery of an unspecified amount of funds. A copy of the final report will be
provided to the senior official responsible for internal controls in the Naval
Facilities Engineering Command.




                                    4
                 FOR OFFICIAL USE ONLY
           A. Cost Controls on the Construction
              Capabilities Contract
           NAVFAC Southeast contracting officials did not effectively implement
           cost control procedures on CONCAP contract task orders issued to KBR
           for recovery efforts associated with Hurricanes Ivan and Katrina.
           Specifically, NAVFAC Southeast contracting officials did not:

               •   establish basic contract forms, either the completion form contract
                   wherein the contractor is required to deliver a specified, definitive
                   end product; or the term (or level-of-effort) form contract wherein
                   the contractor is required to provide simple labor-hours (day,
                   months, or years) over a designated period of time;

               •   obtain contractor cost estimates; evaluate proposed prices; and
                   negotiate a target cost and fixed fee for contract requirements that
                   were defined in clear, specific, and objective terms with
                   measurable outcomes; and

               •   document negotiations.

           As a result, the Navy had no means to measure contractor cost
           performance on task orders totaling more than $229 million and was
           basically just monitoring the contractor’s “spend rate.” KBR also had an
           incentive to increase contract costs to earn additional profit creating an
           illegal cost-plus-percentage-of-cost (CPPC) system of contracting (see
           finding C for details of the CPPC system of contracting).


Guidance
    Cost-Reimbursement Contracts. With cost-reimbursement contracts, the
    Government is required to reimburse the contractor for all allowable and allocable
    costs reasonably incurred in contract performance up to the amount originally
    estimated for contract performance. Once funds run out, the contractor must stop
    work unless the contracting officer authorizes additional funding. A cost-plus-
    award-fee contract is a cost-reimbursement contract that provides for the
    negotiation of an estimated or target cost and an award fee. The award fee is
    broken down into a base fee (which may be zero) and an award fee (or profit),
    which is paid based on the Government’s subjective evaluation of the contractor’s
    performance. The award fee will not be adjusted for cost overruns or when
    contract requirements are completed at less than the total estimated cost. The
    amount of the award fee portion to be paid is a unilateral Government decision
    and not subject to dispute, unless the decision was arbitrary or capricious.

    Contract Form Types. A cost-plus-fixed-fee contract is a cost-reimbursable
    contract that may take one of two basic contract forms to reflect a contractor’s
    legal obligation to deliver specified end products—completion or term (level-of-
    effort).


                                         5
                     FOR OFFICIAL USE ONLY
        Completion Contract Form. The completion contract form describes the
scope of work by stating a definite goal or target and specifying an end product.
This form of contract normally requires the contractor to complete and deliver the
specified end product (for example, repair Building 606’s roof) within the
estimated cost, if possible, as a condition for payment of the entire award fee.
However, in the event the work cannot be completed within the estimated cost,
the Government may require more effort without increase in fee, provided the
Government increases the estimated cost.

         Term Contract Form. The term contract form, on the other hand,
describes the scope of work in general terms and obligates the contractor to
devote a specified “level of effort” for a stated time period (for example, 1,000
staff days of debris removal over a 3-month period). Under this form of contract,
if the performance is considered satisfactory by the Government, the award fee is
payable at the expiration of the agreed-upon period, upon contractor statement
that the level of effort specified in the contract has been expended in performing
the contract work. Renewal for further periods of performance or additional
effort is a new acquisition that involves new cost and fee arrangements.

Contract Pricing and Negotiation. Federal Acquisition Regulation (FAR)
Subpart 15.4, “Contract Pricing,” prescribes cost and price negotiation policies
for pricing negotiated prime contracts and contract modifications. The
contracting officer is responsible for evaluating the reasonableness of the offered
prices. The contracting officer’s analysis develops a negotiation position that
permits the contracting officer and the offeror to reach agreement on a fair and
reasonable price. FAR Subpart 36.214, “Special Procedures for Price Negotiation
in Construction Contracting,” prescribes additional cost and price negotiation
policies for contracts involving construction. For those contracts:
       (a) Agencies shall follow the policies and procedures in Part 15 when
       negotiating prices for construction.

        (b) The contracting officer shall evaluate proposals and associated cost
       or pricing data or information other than cost or pricing data and shall
       compare them to the Government estimate.
         (1) When submission of cost or pricing data is not required (see
       15.403-1 and 15.403-2), and any element of proposed cost differs
       significantly from the Government estimate, the contracting officer
       should request the offeror to submit cost information concerning that
       element (e.g., wage rates or fringe benefits, significant materials,
       equipment allowances, and subcontractor costs).
        (2) When a proposed price is significantly lower than the Government
       estimate, the contracting officer shall make sure both the offeror and
       the Government estimator completely understand the scope of the
       work. If negotiations reveal errors in the Government estimate, the
       estimate shall be corrected and the changes shall be documented in the
       contract file.

FAR Subpart 15.406-3, “Documenting the Negotiation,” requires the contracting
officer to document in the contracting file the principle elements of the negotiated
agreement. The documentation (for example, price negotiation memorandum)
shall include the purpose of the negotiation, a description of the acquisition, a
summary of the contractor’s proposal, any field pricing assistance
                                     6
                   FOR OFFICIAL USE ONLY
recommendations, including the reasons for any pertinent variances from them,
the Government’s negotiation objective, the negotiated position, and
documentation of fair and reasonable pricing.

CONCAP Contract Ordering Procedures. The “Task Orders for Cost
Reimbursement Contract” section of the CONCAP contract establishes detailed
procedures for placing orders against the contract. Specifically, the section
requires that the contracting officer provide KBR with a description of the
specified work requirement, obtain and evaluate a cost estimate, and negotiate
and execute an order that establishes the estimated cost of performance (target
cost) and award fee for each delivery order.
       (a) The Contracting Officer shall furnish the contractor with a written
       request for estimate. The request shall include:
                (1) A description of the specified work requirement
                (including a designation of whether the work is service or
                construction),
                (2) the desired delivery schedule,
                (3) the place and manner of inspection and acceptance, and
                (4) any other pertinent information (such as applicable Davis-
                Bacon Wage Act wage determination or Service Contract Act
                wage determination).

       (b) The contractor shall, within the time specified, provide the
       Contracting Officer with:
                (1)   a detailed cost estimate showing direct and indirect costs;
                (2)   dollar amount and type of proposed subcontract,
                (3)   maximum award fee (calculated at the contract rate), and
                (4)   total estimated cost plus award fee.

       (c) Upon receipt of the estimate, the Contracting Officer and other
       representatives, as deemed necessary, shall review the estimate to
       ensure acceptability to the Government, enter into such discussions
       with the contractor as may be necessary to correct and/or revise the
       proposed order estimate, and effect whatever internal review processes
       are required.

       (d) Upon completion of this process, the Contracting Officer shall
       prepare a task order . . . and forward it to the contractor . . . Only after
       receipt of such an executed order, signed by the Contracting Officer,
       shall the contractor commence work.

Further, the “Task Order and Modification Proposals-Price Breakdown” section
of the CONCAP contract established the procedures for modifying the orders.
The section states:
       The Contractor, in connection with any proposal made for a contract
       modification, shall furnish a cost breakdown, itemized as required by
       the Contracting Officer. Unless otherwise directed, the breakdown
       shall contain sufficient detail to permit an analysis of all material,
       labor, equipment, subcontract, and indirect costs, as well as fee, and
       shall cover all work involved in the modification, whether such work


                                            7
                      FOR OFFICIAL USE ONLY
           was deleted, added, or changed.           Any amount claimed for
           subcontractors shall be supported by similar cost breakdown.



Basic Contract Forms
    NAVFAC Southeast contracting officials failed to use basic contract forms (either
    the completion form contract or the term form contract) to reflect KBR’s legal
    obligation to perform the required hurricane recovery efforts. We reviewed the
    contracting process for the three largest task orders issued to support the
    hurricane recovery efforts. Although NAVFAC Southeast’s contracting officials
    issued technical directions to fill in details or otherwise complete the task orders’
    general description of work, we were unable to determine whether KBR was
    required to deliver specific end products such as repairing Building 606’s roof
    [completion form] or a certain level-of-effort such as providing 1,000 roofing
    hours over a designated period of time [term form]. See Appendix B for a list,
    description, and the value of the individual task orders, task order modifications,
    and technical directions.

    Task Order Number 2. NAVFAC Southeast issued task order number 2 on
    September 17, 2004, for $600,000 to mobilize KBR to the Naval Air Station
    Pensacola, Florida, to assist in assessing the damage caused by Hurricane Ivan,
    and to start removing debris from the Pensacola Complex area. NAVFAC
    Southeast also issued 18 modifications that added an additional $46.2 million to
    the task order and 42 technical directions to provide KBR additional information
    on the work requested, to add new or delete previously requested work, or to shift
    the emphasis among the various scopes of work. The basic statement of work
    included with the task order was for damage assessment and debris removal. The
    basic task order states:
           Funding in the amount of $100,000.00, inclusive of award fee, is
           provided for a planning cell to report to Naval Air Station Pensacola,
           Florida. The planning effort is in preparation for recovery efforts from
           Hurricane Ivan and shall include initial assessments to the base
           operating systems including but not limited to the electrical distribution
           system, the water/wastewater treatment plant and road and airfield
           accessibility. The contractor shall be required to monitor and track
           costs on a daily basis and provide daily reports to the Contracting
           Officer or designated representative. The reports shall include
           estimated costs of labor, subcontracts, and any other direct costs
           associated with the efforts required by this statement of work.
           Funds in the amount of $500,000.00, inclusive of award fee, are
           provided for the debris removal effort in the Pensacola Complex Area.

    On September 20, 2004, the contracting officer issued modification number 2 for
    $5 million and added the following tasks to KBR’s scope of work.
           The nature of work requires rapid stabilization of damaged facilities to
           allow for future repair. Eliminate moisture penetration to interior of
           facility from the exterior environment.
           If the facility exhibits minor roof damage that can be repaired before
           the next forecast precipitation, then fix to full repair. If extensive,
                                               8
                       FOR OFFICIAL USE ONLY
       labor-intensive roof damage exists that cannot be repaired quickly, use
       more expedient repair as appropriate to roof type, i.e. tarp, plywood,
       hot mop to prevent further damage.
       Seal open penetrations in exterior walls. All damaged exterior
       windows and doors that cannot be shut shall be removed and openings
       sealed with plywood, maintain at least two entries that can be opened.
       Remove and dispose of all damaged building material from interior of
       facility, including but not limited to drywall, carpet, and ceiling tile.
       Dry out all remaining building interior materials including but not
       limited to salvageable carpet, walls and fixtures. Dehumidify the
       interior atmosphere of facility to prevent mold and bacterial growth.

Although the task order’s “not to exceed” amount and language in the statement
of work requiring KBR to monitor, track, and report its daily costs to the
contracting officer suggests a level of effort, the task order does not include a
measurable outcome such as staff days or hours and a price of performance.
Consequently, it is not possible to establish what KBR was legally obligated to
complete and deliver. The statement of work language is not clear as to whether
the Government wanted the moisture penetration eliminated, the roof/exterior
wall damage repaired, and the debris removed and disposed for a specific number
of buildings (completion form) or a specific number of labor hours performed
towards the accomplishment of those tasks over a designated period of time (term
form). The contracting officer also issued modification numbers 1, 4, 7–17, 19,
and 20 to add additional funding to the task order with only a general description
of the work to be performed. For example, modification number 1 was issued on
September 18, 2004, to add an additional $3.5 million to the task order for the
“Hurricane Ivan Emergency repairs.” Specifically, the modification states:
       The purpose of this modification is to add additional money for the
       Hurricane Ivan Emergency repairs. The Government hereby issues an
       undefinitized modification with Government Limited Liability of
       $3,500,000.00

Again, the modification language is not clear as to whether the Government wants
additional repairs to be done (completion form) or additional repair hours (term
form). While NAVFAC Southeast contracting officials issued technical
directions to provide KBR more detail on the requirements, the technical
directions did not identify a completion or term form of contract either and for the
most part failed to identify associated funding. For example, technical
direction number 5 specified that:
       Effective immediately, KBR shall provide all labor, material,
       transportation supervision equipment and quality control necessary to
       perform trouble-shooting, make repairs and energize various
       mechanical systems to include: chiller, air handling unit, DDC controls,
       boilers, condenses, compressed air, and related equipment within the
       NAS Pensacola Region. This may also require replacement of
       equipment.

The technical direction is not clear as to whether the Government wanted a
specific number of mechanical systems repaired and energized (completion form)
or a specific number of mechanical systems repair hours over a designated period
of time (term form). In another example, technical direction number 6 specified:

                                          9
                   FOR OFFICIAL USE ONLY
       Effective immediately, KBR shall stage marketable pine trees and
       certain other trees separate from other vegetative debris. Marketable
       pines and [12-inch minimum diameter] butt with 12 [foot] minimum
       log length. Other trees are pecan, cedar, hickory and live oak [between
       16 and 36 inches in diameter] with a log length between [6 and 16
       feet]. Logs solid with no heart rot.

Again, the technical direction is not clear as to whether the Government wanted a
specific number of trees staged (completion form) or a specific number of tree
staging hours over a designated period of time (term form).

Task Order Number 16. NAVFAC Southeast issued task order number 16 on
August 29, 2005, for $150,000 to support the Hurricane Katrina recovery efforts
in the New Orleans area. NAVFAC Southeast also issued 17 modifications that
added an additional $84.8 million to the task order and 47 technical directions to
provide KBR additional information on the work requested, to add new or delete
previously requested work, or to shift the emphasis among the various scopes of
work. The basic statement of work included with the task order was for the initial
disaster response. The basic task order states:
       Initial Disaster Respon[s]e for Hurricane Katrina. Mobilization of
       initial responders.

The statement of work language is not clear as to whether the Government wanted
specific tasks to be performed (completion form) or a specific number of repair
hours over a designated period of time (term form). The contracting officer also
issued modification numbers 2–5, 8–11, 13, 15, 16, and 18–21 to add additional
funding to the task order with only a general description of the work to be
performed. For example, modification number 11 was issued on October 7, 2005,
to add an additional $10 million to continue the Hurricane Katrina recovery.
Specifically, the description included with the modification states:
       The purpose of this modification is to add $10,000,000.00 to this
       delivery order for continued Hurricane Katrina recovery.

Again, the modification language is not clear as to whether the Government
wanted more debris removed, buildings stabilized, or repairs to be performed
(completion form) or more debris removal, stabilization, or repair hours to be
provided over another designated period of time (term form). While NAVFAC
Southeast contracting officials issued technical directions to provide KBR more
detail on the requirements, the technical directions did not identify a completion
or term form of contract and for the most part failed to identify associated
funding. For example, technical direction number 24 specified that:
       Remove and reset loose tiles in showers stalls on the 4th and 5th floor of
       H-100 building, [Naval Support Activity New Orleans] where work
       has been completed.

The technical direction is not clear as to whether the Government wanted a
specific number of loose tiles removed and replaced (completion form) or a
specific number of loose tile removal and replacement hours over a designated
period of time (term form). Further, the reference to “where work has been
completed” suggests this technical direction may not have been issued to initiate

                                          10
                   FOR OFFICIAL USE ONLY
new work but rather for rework required to address quality deficiencies resulting
from poor workmanship.

Task Order Number 17. NAVFAC Southeast issued task order number 17 on
August 30, 2005, for $12.5 million to mobilize KBR to Naval Air Station
Pascagoula, Naval Air Station Gulfport, Stennis Space Center, and other Navy
installations in the Gulf Coast region to assist in assessing the damage caused by
Hurricane Katrina, as well as to start stabilizing the damaged buildings and
removing debris. NAVFAC Southeast also issued 12 modifications that added an
additional $84.8 million to the task order and 58 technical directions to provide
KBR additional information on the work requested, to add new or delete
previously requested work, or to shift the emphasis among the various scopes of
work. The basic statement of work included with the task order was for damage
assessment and debris removal for the initial disaster response. The basic task
order states:
       Initial Disaster Response for Hurricane Katrina. Mobilization/
       Stabilization, debris removal, and assessments at [Naval Air Station]
       Pascagoula, [Naval Air Station] Gulfport, Stennis Space Center and
       other Navy installations in the Southeast Region.

Again, the statement of work language is not clear as to whether the Government
wanted specific tasks to be performed (completion form) or a specific number of
repair hours over a designated period of time (term form). The contracting officer
also issued modification numbers 1, 2, 4–6, 8, 9, 12, 14, and 15 to add additional
funding to the task order with only a general description of the work to be
performed. For example, modification number 1 was issued on September 4,
2005, to add an additional $3 million to continue the Hurricane Katrina recovery.
Specifically, the description included with the modification states:
       The purpose of this modification is to add funds for the stabilization,
       debris removal, and assessments at [Naval Air Station] Pascagoula,
       [Naval Air Station] Gulfport, Stennis Space Center and other Navy
       installations in the Southeast Region.

Again, the modification language is not clear as to whether the Government
wanted additional debris removed, buildings stabilized, or repairs to be performed
(completion form) or more debris removal, stabilization, or repair hours to be
provided over another designated period of time (term form). While NAVFAC
Southeast contracting officials issued technical directions to provide KBR more
detail on the requirements, the technical directions did not identify a completion
or term form of contract and for the most part failed to identify associated
funding. For example, technical direction number 1 states:
       Provide labor, materials, supplies, services to repair electrical
       distribution system, provide temporary dry-in of roofs and building
       envelopes, debris removal, dry-out, and 4 [Megawatt] generator.

NAVAFAC Southeast contracting officials modified technical direction number 1
five times to require KBR to complete and deliver what appears to be specified
end products or deliverables (completion form). Specifically, NAVFAC
Southeast contracting officials modified the technical direction to add two
buildings to the temporary dry-in requirement, to direct the replacement of items

                                         11
                   FOR OFFICIAL USE ONLY
    removed due to mold and water damage, and to direct the glass in several
    buildings be replaced. However, a second technical direction (technical direction
    number 42) was issued to further clarify technical direction number 1’s
    requirements. That technical direction stated that KBR should:
           Provide all labor material and equipment necessary to replace a not to
           exceed amount of 1000 [square feet] of sheet rock, floor coverings,
           and/or ceiling tiles only for various buildings.

    The reference to 1,000 square feet of sheet rock suggests a completion contract
    form. However, the “not to exceed’ reference is vague and makes it unclear
    whether the Navy wants 500, 750, or 1,000 square feet of sheet rock, floor
    coverings, and/or ceiling tiles.

    Clear, Specific, and Objective Requirement Language Needed. There are
    many risks and unknowns associated with natural disaster recovery work and
    without clear, measurable outcomes in the task orders it is not possible to
    determine what KBR was required to deliver. NAVFAC Southeast needs to
    establish procedures that verify contracting officials establish basic contract
    forms, either the completion form contract when the contractor is required to
    deliver a specified, definitive end product, or the term (level-of-effort) form
    contract when the contractor is required to provide simple labor hours (day,
    months, or years) over a designated period of time.


Cost Estimates and Ordering Procedures
    The contracting officer did not consistently obtain contractor cost estimates;
    evaluate proposed prices and negotiate a target cost and fixed fee for contract
    requirements defined in clear, specific, and objective terms with measurable
    outcomes; or effectively implement the procedures for placing orders against the
    CONCAP contract.

    Obtaining Contractor Cost Estimates. The CONCAP contract had detailed
    procedures requiring contractor cost estimates and although the contracting
    officer stated the task orders’ “not to exceed” values (and the award fee pools)
    were based on contractor cost estimates obtained, we were unable to substantiate
    the claim. The cost estimates that NAVFAC Southeast obtained from KBR failed
    to sum to the $229 million estimated cost of performance (“not to exceed” values)
    for the three hurricane recovery task orders. Table 2 shows that NAVFAC
    Southeast contracting officials did not obtain cost estimates from KBR for much
    of the work performed in support of the Navy hurricane recovery efforts.




                                            12
                       FOR OFFICIAL USE ONLY
                        Table 2. Cost Estimates Obtained by KBR
                                            Contractor Cost Estimates
  Task Order    Estimated Cost    Basic and             Technical
   Number       of Performance   Modifications          Directions       Combined     Percent
        2          $46,819,259       $468,000       $      170,000   $      638,000    1.4
        16          84,961,021        -                 17,295,459       17,295,459    20.0
        17          97,346,447        -                 46,663,095       46,663,095    48.0
       Total      $229,126,727       $468,000        $64,128,554        $64,596,554    28.0

As shown above, KBR provided cost estimates for only 28 percent of estimated
cost to repair for damaged infrastructure. Although the contract documentation
linked technical directions to some of the task orders and specific modifications,
the cost estimates the Navy obtained from KBR for the respective technical
directions failed to sum to the amounts added to the task orders. For example, the
contract file for task order number 17 showed that modification number 9 was
issued to add about $33.6 million to fund technical direction numbers 28, 29, 32,
34, 42–45, and 54. However, as Table 3 shows, the cost estimates the Navy
obtained from KBR for those technical directions totaled only $189,268, or less
than 1 percent of the work.

                     Table 3. Cost Estimates for Tasks Funded
                     by Modification Number 9 Failed to Sum
                                  to $33.6 Million
                        Technical                  Cost
                        Direction                Estimate
                           28                         -
                           29                         -
                           32                         -
                           34                    $100,350
                           42                         -
                           43                      21,988
                           44                      20,900
                           45                      83,230
                           54                     (37,200)
                          Total                  $189,268


Without contractor cost estimates, NAVFAC Southeast contracting officers were
unable to evaluate proposed prices and negotiate a target cost and fixed fee for
clearly defined contract requirements. NAVFAC Southeast needs to establish
procedures to verify that contract ordering procedures are followed for
engineering and construction services contracts for future natural disaster
recovery efforts. Specifically:

   •     Cost estimates must be obtained from the contractor for all work
         requested. The cost estimates need to contain sufficient detail to enable
         price reasonableness or cost realism determinations to be made.

   •     Contractor proposals and associated cost or pricing data must be
         evaluated, including comparing proposed costs to an independent
         Government estimate.
                                       13
                   FOR OFFICIAL USE ONLY
Documenting Negotiations and Task Order Funding
           Price Negotiation Memorandums. We were unable to determine how the Navy
           determined that the prices paid to KBR were fair and reasonable. NAVFAC
           Southeast’s contracting officials did not document the principle elements of
           negotiated agreements in the contract files. Contrary to NAVFAC Southeast’s
           contracting officials’ claim that task orders’ “not to exceed” values (estimated
           cost of performance) were based on contractor cost estimates, the Navy just
           periodically increased task order funding to pay for what KBR was projected to
           expend over some unknown future period (based on KBR’s rate of spending at the
           time). Task order modifications were not tied to specific scopes of work and just
           simply issued to add funds to continue the recovery work. The Navy also did not
           obtain proposals from KBR. Therefore, the Navy could not evaluate proposed
           prices, perform cost realism analyses1 to determine the probable cost to complete
           the tasks requested, or negotiate a target cost and fixed fee for contract
           requirements. The failure to base task order funding and the potential profit that
           KBR could earn on the negotiated target cost of definable tasks that KBR was
           directed to perform also created a CPPC system of contracting prohibited by
           section 2306(a), of title 10, United States Code (10 U.S.C. 2306[a]) (see finding
           C).

           Document Contract Negotiations and Establish Funding Procedures.
           NAVFAC Southeast needs to establish procedures to verify that contracting
           officers document the principal elements of the negotiated agreement in the
           contract file. A target cost and fixed fee for contract requirements that are
           defined in clear, specific, and objective terms with measurable outcomes must be
           negotiated and documented. The funding (not the award fee) associated with a
           specific scope of work must only be increased if costs overrun and must be
           decreased when the contractor performs efficiently and completes the requested
           work for less than the negotiated target cost. Thus, how much is spent to
           complete each task must also be tracked and procedures established to adjust task
           order funding when actual performance costs differ for negotiated amounts.




1
    Cost realism analysis is the process of independently reviewing and evaluating specific elements of each
    offeror’s proposed cost estimate to determine whether the estimated proposed cost elements are realistic
    for the work to be performed, reflect a clear understanding of the requirements, and are consistent with
    the unique methods of performance and materials described in the offeror’s technical proposal.

                                                      14
                                FOR OFFICIAL USE ONLY
Improving Contracting Processes
    The Navy needs to improve its contracting processes for hurricane recovery
    efforts. An improved process may be for NAVFAC Southeast to pre-negotiate an
    acceptable range for labor rates for the key skills required to support the Navy’s
    natural disaster recovery efforts. The negotiated rates could be used until the
    Navy has fully assessed the damage and quantified its repair requirements. Once
    that has occurred, the Navy could use competitively awarded firm-fixed-price
    contracts to fulfill its remaining requirements. NAVFAC Southeast may also
    want to consider unit prices, such as square-footage rates for temporary roofing
    repairs and cubic-yard rates for debris removal, instead of time and materials for
    its level-of-effort contracts in the future. This would shift risk to the contractor,
    enable the Navy to better estimate repair costs, and decrease the extent of
    Government oversight required. Figure 3 shows how NAVFAC Southeast might
    obtain the labor and material needed to support the Navy’s hurricane recovery
    efforts.




          Before Hurricane
                                           Hurricane Occurs
        Pre-negotiate a specific
          level of effort over a
       designated period of time
         (for example, 2 weeks)
       for the key skills required
       to support natural disaster
            recovery efforts.
                                     Requirement Identification       Repair Damaged Infrastructure
                                      Use negotiated labor rates to        Issue firm-fixed-price
                                     assess damage, quantify repair        contracts to fulfill the
                                        requirements, and to start            remaining repair
                                       restoring critical missions.             requirements.



    Figure 3. CONCAP Management Approach

    NAVFAC needs to convene a performance improvement team composed of
    representatives from all relevant stakeholders to plan and execute a reengineered
    approach for obtaining the rapid emergency construction and engineering services
    needed to support the Navy’s hurricane recovery efforts.




                                                  15
                          FOR OFFICIAL USE ONLY
Recommendations, Management Comments, and Audit
  Response
    A.1. We recommend the Commander Officer, Naval Facilities Engineering
    Command Southeast:

           a. Establish procedures that verify contracting officials establish
    basic contract forms, either the completion form contract wherein the
    contractor is required to deliver a specified, definitive end product, or the
    term (level-of-effort) form contract wherein the contractor is required to
    provide simple labor-hours (day, months, or years) over a designated period
    of time.

            b. Establish procedures to verify that contract ordering procedures
    are followed for engineering and construction services contracts for natural
    disaster recovery efforts. Specifically, contracting personnel must:

                  1. Request and obtain cost estimates for all work performed.
    The cost estimates need to contain sufficient detail to enable price
    reasonableness or cost realism determinations to be made.

                 2. Evaluate proposals and associated cost or pricing data, to
    include comparing proposed costs to an independent Government estimate.

                 3. Document the principal elements of the negotiated
    agreement in the contract file.

                  4. Base task order funding and potential award fee on the
    probable cost of the specific scopes of work that are requested.

                  5. Track how much is spent on each task that is requested and
    adjust task order funding to actual performance costs when known. The
    funding (not the award fee) associated with those scopes of work must only
    be increased if cost overruns occur and must be decreased when the
    contractor performs efficiently and completes the requested work for less
    than the negotiated cost.

    A.2. We recommend the Commander Officer, Naval Facilities Engineering
    Command Atlantic convene a performance improvement team composed of
    representatives from all relevant stakeholders to plan and execute a
    reengineered approach for obtaining the rapid emergency construction and
    engineering services needed to support the Navy’s hurricane recovery
    efforts.

    Management Comments. The Assistant Commander for Acquisition concurred
    and stated that NAVFAC reengineered its approach to contracting for emergency
    construction and engineering services through the award of the Global
    Contingency Contract (GCC) contract. Specifically, there are controls in place
    with the GCC contract that require a more defined scope of work. In addition, the
    Assistant Commander stated that the NAVFAC Business Management System
    (BMS) process, Global Contingency Construction, issued on March 24, 2008,
    addresses the requirement for the contracting officer to specify either a
                                        16
                     FOR OFFICIAL USE ONLY
completion form or term form contract. The process also addresses that each task
order or modification shall include a scope of work and either a completion date
or period of performance. The Assistant Commander stated the NAVFAC BMS
process requires a detailed Government estimate in order to negotiate a fair and
reasonable price for the deliverables required. In addition, a detailed cost
estimate will be required from the contractor on all requests for proposals for task
orders, modifications, and technical directions issued. All proposals from the
contractor will be reviewed and compared to an independent estimate.
Furthermore, each contract task order or modification will be negotiated to
establish a target cost, with applicable award fee, for the required scope of work,
which will be documented in accordance with BMS procedures. In addition, the
target cost for task orders will only be adjusted commensurate to increases or
decreases in the scope of work. Award fee will not be adjusted for any cost
overruns. NAVFAC Atlantic will host a training session in the May-to-June 2008
time frame on the new ordering and administration procedures.

Audit Response. We consider the comments responsive.




                                     17
                  FOR OFFICIAL USE ONLY
                   B. Subcontract Costs
                   NAVFAC Southeast contracting officials did not provide adequate
                   oversight on subcontracts valued at almost $242 million2 awarded by KBR
                   in support of the three task orders for hurricane recovery efforts on the
                   CONCAP contract. The subcontract oversight was insufficient because
                   NAVFAC Southeast contracting officials believed it was unnecessary
                   since KBR had an approved purchasing system and the Defense Contract
                   Audit Agency would be auditing task order costs at contract close out.
                   Unfortunately, the three methods that KBR used to support price
                   reasonableness for subcontracts (competition, market research, and other)
                   were inadequate due to the abnormal market conditions and either cost or
                   pricing data or some type of cost analysis were necessary to determine
                   price reasonableness. As a result, KBR awarded sole-source and limited
                   competition subcontracts that paid roofers hourly rates of up to       ,
                   purchased $4.1 million of meals and services that “should have” cost
                   approximately $1.7 million, and inappropriately paid a markup (or profit)
                   on material and equipment totaling $7.2 million that increased
                   proportionally to material and equipment costs expended in performance,
                   a cost-plus-percentage-of-cost (CPPC) system of contracting.


Guidance
           Contracting Officer and Prime Contractor Responsibilities. FAR Subpart
           15.404-3, “Subcontract Pricing Considerations,” requires contracting officers to
           determine price reasonableness for prime contracts, including subcontracting
           costs. Further, the prime contractor must also evaluate subcontractor prices to
           establish price reasonableness as a part of the prime contract proposal.
           Specifically, the FAR states:
                   (a) The contracting officer is responsible for the determination of price
                   reasonableness for the prime contract, including subcontracting costs.
                   The contracting officer should consider whether a contractor or
                   subcontractor has an approved purchasing system, has performed cost
                   or price analysis of proposed subcontractor prices, or has negotiated
                   the subcontract prices before negotiation of the prime contract, in
                   determining the reasonableness of the prime contract price. This does
                   not relieve the contracting officer from the responsibility to
                   analyze the contractor’s submission, including subcontractor’s cost
                   or pricing data.
                   (b) The prime contractor or subcontractor shall—
                   (1) Conduct appropriate cost or price analyses to establish the
                   reasonableness of proposed subcontract prices;
                   (2) Include the results of these analyses in the price proposal; and
                   (3) When required by paragraph (c) of this subsection, submit
                   subcontractor cost or pricing data to the Government as part of its own
                   cost or pricing data.


2
    KBR subcontracts not-to-exceed amounts exceeded the Navy’s task order funding.

                                                     18
                               FOR OFFICIAL USE ONLY
       (c) Any contractor or subcontractor that is required to submit cost or
       pricing data also shall obtain and analyze cost or pricing data before
       awarding any subcontract, purchase order, or modification expected to
       exceed the cost or pricing data threshold, unless an exception in
       15.403-1(b) applies to that action. [Emphasis Added]

Contractor Purchasing System Review. FAR Part 44.3, “Contractors
Purchasing Systems Review,” permits the administrative contracting officer to
perform a contractor purchasing system review to evaluate the efficiency and
effectiveness with which the contractor spends Government funds and complies
with Government policy when subcontracting. The review provides the
administrative contracting officer a basis for granting, withholding, or
withdrawing approval of the contractor’s purchasing system. When a contractor
purchasing system review is conducted, special attention is given to the degree of
price competition and pricing policies and techniques used by the contractor.

Consent to Subcontract. FAR Subpart 44.201-1, “Consent Requirements,”
states if a contractor has an approved purchasing system, consent is not required
for subcontracts, unless they are specifically identified in the subcontract’s clause.

Exceptions to Cost or Pricing Data Requirements. FAR 15.403-1, “Prohibition
on Obtaining Cost or Pricing Data (10 U.S.C. 2306a and 41 U.S.C. 254b),”
provides guidance on exceptions to cost or pricing data requirements relating to
adequate price competition, prices set by law or regulation, and commercial
items.

Commercial Item Definition. Commercial services are defined in 41 U.S.C. 403,
“Definitions,” as services that are sold competitively and in substantial quantities
in the commercial marketplace.
       (12) The term “commercial item” means any of the following:
        (A) Any item, other than real property, that is of a type customarily
       used by the general public or by nongovernmental entities for purposes
       other than governmental purposes, and that--
            (i) has been sold, leased, or licensed to the general public; or
            (ii) has been offered for sale, lease, or license to the general
          public.
        (B) Any item that evolved from an item described in
       subparagraph (A) through advances in technology or performance and
       that is not yet available in the commercial marketplace, but will be
       available in the commercial marketplace in time to satisfy the delivery
       requirements under a Federal Government solicitation.
         (C) Any item that, but for --
            (i) modifications of a type customarily available in the commercial
           marketplace, or
            (ii) minor modifications made to meet Federal Government
           requirements, would satisfy the criteria in subparagraph (A) or (B).
         (D) Any combination of items meeting the requirements of
       subparagraph (A), (B), (C), or (E) that are of a type customarily
       combined and sold in combination to the general public.
         (E) Installation services, maintenance services, repair services,
       training services, and other services if --


                                         19
                   FOR OFFICIAL USE ONLY
              (i) the services are procured for support of an item referred to in
              subparagraph (A), (B), (C), or (D), regardless of whether such
              services are provided by the same source or at the same time as the
              item; and
              (ii) the source of the services provides similar services
              contemporaneously to the general public under terms and
              conditions similar to those offered to the Federal Government.
            (F) Services offered and sold competitively, in substantial
           quantities, in the commercial marketplace based on established
           catalog or market prices for specific tasks performed and under
           standard commercial terms and conditions. [Emphasis added]

    Time-and-Materials Contracts. FAR 16.601, “Time-and-materials contracts,”
    provides guidance on acquiring services under time-and-materials contracts.
           (b) Description. A time-and-materials contract provides for acquiring
           supplies or services on the basis of—
               (1) Direct labor hours at specified fixed hourly rates that include
              wages, overhead, general and administrative expenses, and profit;
              and
               (2) Actual cost for materials (except as provided for in 31.205-
              26(e) and (f)).
                   .         .      .        .         .       .         .
           (c) Application. A time-and-materials contract may be used only when
           it is not possible at the time of placing the contract to estimate
           accurately the extent or duration of the work or to anticipate costs with
           any reasonable degree of confidence . . . .
               (3) Material handling costs. When included as part of material
              costs, material handling costs shall include only costs clearly
              excluded from the labor-hour rate. Material handling costs may
              include all appropriate indirect costs allocated to direct
              materials in accordance with the contractor's usual accounting
              procedures consistent with Part 31. [Emphasis added]

Government Purchasing System Reviews
    NAVFAC officials stated they relied heavily on the Defense Contract
    Management Agency’s approval of KBR’s purchasing system. However, the
    Defense Contract Audit Agency (DCAA) had identified significant deficiencies
    with KBR’s purchasing system over the last couple of years. DCAA Report
    Number 3311-2005K12030001, “Purchasing System Internal Controls,” issued on
    June 23, 2006, discusses the KBR purchasing system internal controls. The
    report disclosed that KBR’s policies, procedures, and practices for subcontract
    award and administration were not adequate. DCAA also found that KBR did not
    perform regular internal compliance reviews of its overall procurement system
    and failed to maintain documentation that adequately justified its subcontract
    awards and demonstrated that negotiated subcontract prices were based on
    adequate cost or price analysis. In addition, DCAA found that KBR did not have
    a process in place for seeking and taking advantage of prompt pay discounts and
    did not always accurately report contractor achieved cost savings. As a result,
    DCAA recommended that the Defense Contract Management Agency disapprove
    those portions of the KBR purchasing system. Despite these shortcomings, the
                                             20
                       FOR OFFICIAL USE ONLY
    Defense Contract Management Agency extended its approval of KBR’s
    purchasing system because KBR initiated actions to address the issues raised by
    the DCAA audits. NAVFAC officials stated KBR’s purchasing system approval
    status heavily influenced the extent of oversight they devoted to KBR’s
    subcontracting efforts.


Subcontract Oversight
    NAVFAC Southeast contracting officials did not provide adequate oversight over
    the subcontracts that KBR awarded in support of three task orders for hurricane
    recovery efforts on the CONCAP contract.

    KBR Subcontracting Process. The “KBR Government and Infrastructure
    Procurement Policy and Practices Manual,” March 21, 2006, prescribes the policy
    and procurement practices that all KBR employees and organizations must follow
    that are involved in any procurement activity. Figure 4 shows the prescribed
    process to issue subcontracts.


               Pre-Award and Solicitation                        Evaluation and Award

      Material         Perform                        Evaluation/       Obtain
                       Market         Prepare/Issue                                     Selection/
     Requisition                                      Cost or Price    Consent/
                      Research/        Solicitation                                      Award
       Issued/                                         Analysis/       Approvals
     Request for       Identify                       Negotiation
     Subcontract       Sources



    Figure 4. KBR Subcontracting Process

    Navy Oversight. NAVFAC Southeast’s contracting officials chose not to review
    KBR’s analysis of subcontractor prices, including subcontractor cost or pricing
    data (not obtained by KBR), since KBR had an approved purchasing system and
    NAVFAC Southeast’s contracting officials thought that any problems with
    KBR’s subcontract pricing would be uncovered by DCAA during its cost incurred
    audits prior to the task orders being closed out.




                                            21
                      FOR OFFICIAL USE ONLY
           Table 4 shows, as of August 31, 2007, subcontract costs amounted to almost
           $193 million or 85 percent of the funds expended to support the three hurricane
           recovery task orders.

                                         Table. 4 Hurricane Recovery Costs
                                           Task Order        Task Order      Task Order
                                           Number 2          Number 16       Number 17       Total        Percent
            Labor
            Travel
            Other direct costs
            Overhead
            General and Administrative
             KBR' s Cost
            Subcontracts
             Subtotal
            KBR' s profit
             Total                         $46,348,906       $84,327,848     $96,521,087   $227,197,841   100.0


           To evaluate the impact of NAVFAC Southeast’s decision, we reviewed the
           contracting process for the 34 subcontracts with estimated values of more than
           $1 million that KBR issued to support the Navy recovery efforts after Hurricanes
           Ivan and Katrina. Table 5 shows that KBR used either competition, market
           research,3 or other means to support price reasonableness for subcontract prices.
           The KBR CONCAP Program Manager and one of KBR’s subcontract
           administrators stated that KBR did not obtain cost or pricing data from its
           subcontractors because they were prohibited from doing so because the offerors’
           proposed prices met one of the exceptions identified in FAR 15.403-1,
           “Prohibition on Obtaining Cost or Pricing Data (10 U.S.C 2306a and 41 U.S.C.
           254b).” According to the KBR representatives, this was because the prices paid
           had been based on adequate price competition, were set by regulation (utility
           services), or because KBR had acquired a commercial service. See Appendix C
           for specifics on the subcontracts reviewed.

                                Table 5. Basis for Price Reasonableness
                                              (in Millions)
                                 Task Order           Market
                                  Number Competition Research              Other
                                      2     $ 29.3     $ 0.0               $ 8.2
                                     16       15.3       5.1                33.2
                                     17       75.4      37.5                38.0
                                   Total    $120.0     $42.6               $79.4

           Unfortunately, the three methods (competition, market research, or other) that
           KBR used to support price reasonableness for subcontract prices were inadequate


3
    Comparisons of the offered prices to prices paid for similar services during prior hurricane recovery
    efforts.

                                                        22
                                 FOR OFFICIAL USE ONLY
    due to the abnormal market conditions, either cost or pricing data or some type of
    cost analysis were necessary to determine price reasonableness.


Competition and Market Research
    Limited Competition - $120 Million. According to KBR’s “Award Document
    Summaries,” only 16 (or 47 percent) of the 34 subcontracts valued at more than
    $1 million were awarded “competitively.” KBR waited until after the storms
    before soliciting offerors for proposals to perform the tasks the Navy requested.
    At that point, market forces were out of balance and KBR representatives stated
    that many subcontractors were only willing to perform the requested tasks on a
    time-and-materials basis. There was also intense political, public, and operational
    pressure to restore lost capabilities and to stabilize the buildings damaged to
    prevent their further damage, and demand for the labor and material needed to
    perform the repairs was at its peak. KBR had to compete with other Federal,
    state, and local agencies, as well as the private sector, for the labor and materials
    it needed. As a result, the process of getting competitively priced contracts in
    place and ready for immediate execution posed significant difficulty for KBR
    and, according to NAVFAC Southeast representatives, the Navy had to accept
    rates 20 to 40 percent higher than those available before the storm.

    Based on our review of the “competitions” that KBR conducted to select the
    subcontractors used to repair roofs, we believe the actual number of subcontracts
    awarded competitively is far less and the premium was much greater than 20 to
    40 percent. For example, KBR solicited five contractors to repair the roofs
    damaged by Hurricane Ivan. The contractors were requested to propose fully
    burdened hourly labor rates inclusive of all costs associated with the work other
    than material. The rates were to be based on staffing the work 12 hours per day,
    7 days per week, weighted for overtime and include all burdens and benefits,
    supervision, tools, equipment, other overhead costs, and profit.




                                         23
                      FOR OFFICIAL USE ONLY
As Table 6 shows, the rates proposed by the bidders ranged from $68.20 to
$120.00. The table also shows that, despite the more than 76 percent difference
between the lowest and highest proposed prices and the 167 percent difference
between the lowest proposed price and the hourly rate that the Bureau of Labor
Statistics reports that the top 10 percent of roofers in Pensacola, Florida, receive,
the KBR subcontract manager concluded that adequate price competition existed
and found the prices proposed by all but the highest were acceptable for award.
Based on that determination, KBR awarded each of the contractors a piece of the
total roof repair requirement.

                        Table 6. Roofing Companies' Proposed Rates
                                        Hourly                                                       Received
                 Contractor              Rate               Price Evaluation Method                   Award
                                                          Adequate Price Competition                     No
                                                          Adequate Price Competition                     Yes
                                                          Adequate Price Competition                     Yes
                                                          Adequate Price Competition                     Yes
                                                          Adequate Price Competition                     Yes
         According to the Bureau of Labor Statistics, the top 10 percent of roofers receive $25.59 per hour in the
         Pensacola, Florida, area.



We believe the 46.6 percent difference between acceptable bids and the more than
150 percent premium over the prevailing hourly roofing rate for the Pensacola
area should have prompted KBR to request cost or pricing data or other cost
information from the offerors. FAR 15.402, “Pricing Policy,” requires
contracting officers to purchase goods and services from responsible sources at
fair and reasonable prices. KBR defines a reasonable price as the “price that a
prudent and competent buyer would be willing to pay, given available data on
market conditions, alternatives for meeting the requirement, the evaluated price of
each alternative, and technical evaluation factors.” KBR requires the
determinations be made using price analysis when cost or pricing data are not
required and using price analysis in conjunction with cost analysis when cost and
pricing data are required. KBR also requires its procurement personnel to obtain
sufficient data to perform the cost or price analysis for making the determinations.
Had KBR performed some cost analysis, it would have discovered numerous
problems with the pricing offered. We met with representatives from three of the
roofing subcontractors:




                                                    24
                       FOR OFFICIAL USE ONLY
As Table 7 shows, combined, the roofing companies were paid approximately
$27.5 million or 56.6 percent of the $48.5 million spent through September 2006
to repair roofs damaged by Hurricanes Ivan and Katrina.

                         Table 7. Roofing Subcontractors Reviewed
                                         Task Order    Task Order   Task Order
  Contractor                               No. 2         No. 16       No. 17             Total
       Reviewed
                                         $1,177,169    $3,260,840   $7,070,774   $     11,508,783
                                          1,236,289         -            -              1,236,289
                                          2,953,823    11,158,559      614,859         14,727,241
  Subtotal                                                                           $27,472,313
       Not Reviewed
                                          3,215,358        -             -             3,215,358
                                              -            -         8,454,603         8,454,603
                                          1,620,321        -             -             1,620,321
                                              -            -         2,884,730         2,884,730
                                              -            -         2,088,282         2,088,282
                                              -            -         2,815,548         2,815,548
  Subtotal                                                                           $21,078,842
  Total                                                                              $48,551,155
  Percent Reviewed                                                                          56.6

During our visits, we obtained other cost information to support the composition
of each roofing company’s labor rate. Table 8 shows a breakout of the various
cost elements that each roofing company used its Hurricane Ivan labor rate to
recoup. We found that costs that should have been charged as other direct costs,
such as meals, gas, cell phone service, and mobilization were built into the rates.

                       Table 8. Hurricane Ivan's Labor Rates

                      Hourly     Daily        Hourly       Daily       Hourly    Daily
  Wages
  Fringe
  Taxes
  Insurance
  Small tools
  Overhead
   Subtotal
  Meals
  Gas                                                                    -           -
  Cell phones                                                            -           -
  Mobilization                                                           -           -
   Subtotal
  Profit
   Rate
   *




                                         25
                      FOR OFFICIAL USE ONLY
           In addition, we found many of the cost elements the companies built into their
           labor rates were unsupported, overstated, or just questionable. KBR also agreed
           to pay some costs outside the labor rate. The net result of these issues caused the
           rates to be overstated and incomparable to one another.

                    Unsupported Costs. The roofing companies could not support all the
           cost elements included in their rates. For example,                  was already
           performing work at NAS Pensacola when KBR issued its request for proposal
           soliciting bids to repair the roofs damaged by Hurricane Ivan. The vice president
           stated that the response time to the request for proposal was short and did not
           allow for an in-depth analysis or accumulation of quotes. Thus, using the
           information he had available, his years of knowledge and experience in the
           roofing business, and taking into consideration the conditions under which the
           work would be performed, the vice president projected a loaded rate of         per
           hour for all costs except material. The vice president further stated the rate was
           developed taking into consideration that additional personnel would have to
           mobilize (assemble, outfit, and transport) from San Antonio; it would be
           necessary to work long days; lodging and food costs in the area were above
                       policy for per diem or what was recognized for the area in the Federal
           Travel Regulations; and there was higher risk involved in successfully locating
           and obtaining or shipping tools, equipment, and other services and necessities
           required to perform the work. However, after their subcontract was awarded,
                            found that people located in the Florida area could be used to
           supplement their personnel already working in the area. Thus, although factored
           into its rate,                did not mobilize any additional people to repair the
           damaged roofs. Further, their roofers worked almost no overtime.

                               , on the other hand, was unable to support the amount included
           in its rate for overhead costs.                      Chief Financial Officer stated
           the dollar value was developed using the company’s historical rate, but could not
           provide cost data to support the rate that was used to derive the amount included
           in its rate to recoup its overhead costs.

                   Overstated Costs. Other cost elements were overstated. To assess the
           reasonableness of the amounts that                       and
           included in their rates for wages,4 we compared the impact that those amounts had
           on the rates to the amounts that the companies would have charged had their
           roofers’ actual wages been used to develop the labor rates. As a result, we
           concluded                        wage estimate caused its labor rate to be
           approximately 20 percent overstated. In addition, we found the amounts that the
           roofing companies included in their rates to recoup the cost of feeding their
           employees were significantly higher than the $32 a day that the Federal Travel
           Regulations recognized for the Pensacola, Florida, area. As stated above, a
           number of                    employees lived locally and, thus, were not entitled to
           per diem but it was built into their labor rate. KBR also agreed to pay
                    and                     more than the amount recognized by the Federal
           Travel Regulations (31 and 125 percent more respectively). In addition, although
           they received per diem as a part of their rates, some subcontractors’ employees,
           including those of                     , also received meals from the base galleys


4
    We were unable to determine how much of                    labor rate was designed to recoup what the
    company paid to its employees because its rate was not formally developed.

                                                     26
                                FOR OFFICIAL USE ONLY
and dining services that KBR provided during the Hurricane Katrina recovery
effort at no cost.

         Questionable Costs. Other cost elements included in the rates were
designed to recoup questionable costs. For example,                       included
$1.50 per hour to recoup the cost of extra cell phones it expected its employees
would need to perform the work. Based on the 12-hour days that each employee
was expected to work, we calculate that KBR paid                        $540 a
month (30 days) per employee for each employee to have a cell phone while
repairing the damaged roofs.                      also included a $2.00 charge in
its hourly rate or $720 a month per employee to pay for additional gas it expected
to use during the performance of the work, despite KBR agreeing to provide fuel
for “all                        ] trucks and transportation requirements.” In
addition to finding these charges excessive, we question their appropriateness.
Normally, these charges, if appropriate, should be recouped as other direct costs.

Two of the roofing companies also used their labor rates to recoup anticipated
one-time nonrecurring costs. As stated above,                      Vice President
developed its rate based on personnel mobilizing from San Antonio to perform
the work. However, that never happened. Instead, the company found people
already located in Florida who could perform the work. Thus, that portion of its
rate converted to additional profit for the company.                       , on the
other hand, included $33.13 in its hourly rate to recoup the $248,900 that it
expected to incur mobilizing its 40 employees from San Antonio, Texas, and to
purchase trailers for the employees to stay in while they repaired the damaged
roofs.                     based this plus-up on a guarantee of work for a 2-week
period. However, KBR never renegotiated the rate after the 2-week period
lapsed. As a result, the Navy paid $97,209 more than necessary for these costs.
Although                      failed to include anything in its rate to recoup its
mobilization cost for Hurricane Ivan,                        Chief Financial Officer
stated that KBR agreed to pay the company an additional $250 for each individual
it deployed to repair roofs damaged by Hurricane Katrina. Again, these costs, if
appropriate, should have been charged as other direct costs and not included in
labor rates.

NAVFAC needs to establish procedures to verify that subcontract costs for
natural disaster recovery efforts are adequately analyzed and only appropriate
costs are included in the labor rate.

Market Research - $42.6 Million. KBR also used questionable market research
to determine that the prices paid for nine other subcontracts were reasonable.
Specifically, KBR compared the prices paid under those subcontracts to each
other and to those proposed by the offerors that participated in the limited
competitions that were held. For example, KBR used the prices offered by the
roofing companies that were awarded competitive roofing contracts to support a
determination that the      per hour price offered by                     to fix
roofs damaged by Hurricane Katrina was fair and reasonable. However, our
review of the composition of                         Hurricane Katrina labor rate, as
well as one of the rates used to support KBR’s reasonableness determination
found that both suffered from the same problems we discussed previously. KBR
required the same pricing methodology be used for these subcontracts as was used
for the roofing subcontractors, thus in all likelihood, the problems noted with the
roofing companies’ labor rates also exists with these subcontractors’ rates as well.

                                     27
                  FOR OFFICIAL USE ONLY
Had KBR adequately analyzed prices in the past, the labor rates paid during prior
hurricane recovery efforts most likely would have been based only on appropriate
costs and KBR’s comparisons of offerors’ proposed prices to those paid for
similar services during previous efforts most likely would have produced accurate
price reasonableness determinations. Thus, we are not making any
recommendations related to this area.

Other - $79.4 Million. We found little or no support for how KBR determined
the prices paid under the remaining nine subcontracts valued at more than
$1 million were fair and reasonable. For the subcontracts that we were able to
obtain information on the method used to establish price reasonableness, KBR
either failed to obtain cost or pricing data, compared an offeror’s proposed prices
to either dissimilar or a subset of the requirements, or made the determination
after it agreed to the price. For example, on September 4, 2005, the Navy issued
technical direction number 2 to task order number 16 to direct KBR:
               to . . . provide 2,000 man tent camp with [food service],
               temporary toilet facilities, and other necessary utilities to
               service up to 7,500 military, civilian, and contractor
               personnel.”
On September 5, 2005, KBR requested the
             to provide a lump sum weekly quote for serving 2,500 meals per day
and a unit price for each meal served above the first 2,500. In response to the
solicitation,           proposed serving 2,500 meals per day for a lump sum of
           and charging an additional         for each meal served thereafter. On
September 9, 2005, the KBR CONCAP Program Manager increased the scope of
the work and pricing structure. Specifically, KBR requested             to provide
a lump sum weekly quote for serving three meals to 2,500 personnel per day and
a unit price for each meal served over that amount. Thus,            revised its
proposal to serving the 7,500 meals each day for            weekly and charging
an additional          for each meal served over 7,500.

        Notice to Proceed and Price Reasonableness. Due to the urgency to
issue the “Notice to Proceed,” the KBR CONCAP Program General Manager
authorized awarding a sole-source subcontract to             for a not-to-exceed
amount of $9.1 million. The KBR CONCAP Program General Manager stated,
“The price is fair and reasonable. We have a pricing structure that will ensure we
pay for actual meals served only.” He also instructed             to “proceed with
mobilizing assets to New Orleans while [KBR’s] Procurement folks work on
getting the subcontract issued.” We were unable to determine how the KBR
CONCAP Program Manager determined that the prices were fair and reasonable;
there is nothing in the subcontract’s procurement file to document how the
determination was made. On September 16, 2005, the KBR Senior Subcontract
Administrator requested             to “provide the breakdown for food,
equipment, labor, overhead, and profit for the [offered prices].”




                                       28
                  FOR OFFICIAL USE ONLY
  Table 9 shows the per person daily pricing breakout that        provided to
  KBR for its lump sum weekly quote for serving 3 meals to 2,500 personnel per
  day.

                            Table 9. Daily Per Person Pricing
                                      Breakdown
                                   Item Description         Unit Price
                           Food and materials
                           Equipment and supplies
                           Labor
                           Overhead and profit (17.66%)
                           Total

  According to KBR’s Negotiation Memorandum, KBR’s procurement personnel
  found:
                              to be high, particularly the food cost and equipment
          per person.             was then provided a spreadsheet that requested
          their fixed cost and variable cost, such as food and consumables. The
          prices that were provided averaged out to the original               per
          person per day.            was then asked why the equipment cost was
          so high, at which           could not provide an acceptable answer. At
          that point,           was asked to go back and reduce their costs. It
          was also pointed out that KBR would not pay higher than the current
          Per Diem rate for Fiscal Year 2005 in that area, which was $47.00.
                     claimed to be feeding the personnel items such as steak and
          eggs and other higher cost food items. Again,                was advised
          that KBR would not pay higher than the going Per Diem rate in the
          area. [KBR] also stated that [it] wanted to see a cost scale that
          decreased as the numbers in the camp increased.

  On September 22, 2005,                   revised its pricing structure to the following:

      •   Lump sum of          weekly or                    per person per day for providing
          THREE meals for 2,500 people a day

      •   Meals with a headcount of 2,501–3,500, the cost shall be                   a day;

      •   Meals with a headcount of 3,501–4,500, the cost shall be                   a day;

      •   Meals with a headcount of 4,501–5,500, the cost shall be                   a day;

      •   Meals with a headcount of 5,501–6,500, the cost shall be                   a day;

      •   Meals with a headcount of 6,501–7,500, the cost shall be                   a day;
          and

      •   $215,000 to cover initial startup costs and $55,000 for demobilization.

The KBR Senior Subcontract Administrator “found [the new prices] to be fair and
reasonable to both KBR and the [Government]” because they were “lower than the
prevailing Per Diem at the time.” As a result, the Navy was obligated to buy three
                                             29
                      FOR OFFICIAL USE ONLY
                      meals for 2,500 personnel each day even if they were not needed, which ended up
                      being the case. As Figure 5 shows, over the 34-day contract performance period,
                      KBR purchased 227,500 meals for                through this provision, even though
                                served only 113,654 meals because the personnel located in the area had
                      other food service options.5

                      250,000
                                                                                           227,500
                      200,000
    Number of Meals




                      150,000                                                               Unneeded meals


                      100,000
                                                                                                     113,846
                       50,000

                           0
                                9/13   9/17     9/21    9/25        9/29   10/3     10/7     10/11       10/15
                                                 Meals Purchased                  Meals Served


                         Figure 5. Unneeded Meals Purchased

                         According to a            representative, the excess meals were discarded because
                         they could not be stored at the temperature prescribed by food safety guidelines.
                         We also found the prices KBR agreed to pay were greatly inflated. The Navy
                         paid approximately                for meals and services that we calculate should
                         have cost $1.7 million, more than a               difference.




5
              started serving meals the evening of September 13, 2005, and did not provide any food service
    for a 3-day period due to all personnel being evacuated during Hurricane Rita.

                                                               30
                                              FOR OFFICIAL USE ONLY
Table 10 shows the price            charged KBR, the            cost, a price we
calculate would be fair and reasonable for all the meals          purchased
(including those that were reportedly discarded), and a price we calculate would
be fair and reasonable to purchase only the meals actually eaten.

                       Table 10. Reasonable Cost for Meals Served
                                                                    Fair and Reasonable Price*
    Description                      Price            Cost          All Meals     Meals Served
    Mobilization
    Meals and consumables
    Equipment
    Labor
    Subtotal                                                                                    9
               fee
    Subtotal                                                                                   62
    KBR fee
    Total
    *
     Our calculations assume KBR paid a fair price to lease             cooking equipment for the
    34-day contract performance period since the equipment was not provided to the Navy and that
             was paid       percent for profit and its overhead as was originally agreed upon by
    the CONCAP Program General Manager.


Unfortunately, KBR stated it did not obtain cost or pricing data or cost
information to include uncertified cost data because it was acquiring a
commercial item and, thus, was prohibited from requiring             to provide the
data. We disagree. There is not a marketplace where food service for
7,500 personnel is offered and sold competitively in substantial quantities, nor
were there catalog or market prices for the services as required. KBR should
have obtained cost or pricing data or, at a minimum, uncertified cost data. Had
KBR done that, it would have determined              spent $367,994 to purchase
the equipment that KBR leased for $1,122,914 and most likely would have
concluded the reasonable price to buy and serve the food consumed by the Navy
personnel operating in the New Orleans region was between $1.7 and $2.7 million
(depending on the number of meals purchased).

DCAA has also been reviewing the             subcontract as a part of its incurred
costs audits. In Audit Report number 3321-2007K17900006, DCAA also
recommended that                of the            that KBR paid              be
disallowed because they were associated with meals that were not served and
labor and equipment costs that was not required. NAVFAC should, at a
minimum, recover fair costs and fees associated with equipment totaling
$1,368,077 that was purchased by            and never delivered to the Navy




                                             31
                     FOR OFFICIAL USE ONLY
Material Handling Costs
         KBR inappropriately paid subcontractors a profit on material costs through a
         provision that was also administered as a prohibited cost-plus-percentage-of-cost
         system of contracting. The provision, which was incorporated into 17 of the 28
         time-and-materials subcontracts valued at more than $1 million, provided for
         material handling costs to be recouped through a markup paid on the material and
         equipment purchased to perform the needed repairs. As Table 11 shows, KBR
         paid about $7.2 million through the material and equipment markup provisions.
         The table also shows that the markup was strictly additional profit for two of the
         roofing companies we visited, while it was part profit/part reimbursement of
         material handling charges for the other company.

                Table 11. Subcontractors With Material and Equipment Markup Provisions
                                                                                      Total                 Profit
Subcontract                      Contractor            Materials      Equipment       Cost        Percent        Paid
 Reviewed/ Pure Profit
                                                   $    2,907,727 $      320,561 $    3,228,288
   3                                                      564,706         90,169        654,875
                                                           94,836         19,687        114,523
Subtotal                                                3,567,269        430,417      3,997,686
 Reviewed/ Mixed
                                                          411,385        293,829       705,214
                                                          121,105         11,364       132,469
Subtotal                                                  532,490        305,193       837,683
 Not Reviewed
                                                          204,479         -            204,479
                                                          252,750         24,792       277,542
                                                          630,900         82,609       713,509
                                                            9,940         -              9,940
                                                          193,097        410,855       603,952

                                                          470,499        142,382        612,881
                                                        1,752,284        140,495      1,892,779
                                                           30,556      2,227,604      2,258,160
                         1                              6,031,291     21,418,417     27,449,708
                                                        2,121,848         69,530      2,191,378
                                                        1,514,968        573,692      2,088,660
                                                          525,854         -             525,854
Subtotal                                               13,738,466     25,090,376     38,828,842


 Total




         Representatives from                and                     stated they had the
         material needed to repair the damaged roofs delivered directly to the work site
         and any time spent handling the material was recouped through their employees’
         labor hours. Consequently, any markup on their material and equipment costs

                                              32
                             FOR OFFICIAL USE ONLY
represents profit that is unallowable on material and equipment costs.
           President, on the other hand, provided support that showed its markup
was designed to recoup a number of charges, to include those associated with its
warehouse and purchasing personnel, managers, and supervisors, the renting of its
warehouse, taxes, utilities, insurance, and for material handling equipment.
However, based on our review of the cost data that were provided, we believe
some of the charges may also be included in                          labor rate.
Although contractors are allowed to include material handling costs, if
appropriate, as a part of material costs, those costs can only include costs clearly
excluded from the labor rates.

According to the KBR CONCAP Project Manager, it was an industry standard to
use a markup to pay companies for their material handling charges. Our review
found otherwise: different companies handle those costs differently. It was
KBR’s responsibility to determine whether these indirect material handling costs
were in accordance with contract accounting practices or profit. By using a
markup to pay companies for their material handling charges, KBR also created a
CPPC system of contracting prohibited by 10 U.S.C. 2306(a). The markup on
material and equipment purchases meets the Government Accountability Office
(GAO) four-point test (see Finding C). Payment was based on predetermined
percentages (GAO #1) that were applied to the subcontractors’ material and
equipment costs (GAO #2). The payments resulting from the markups were not
certain until all the repairs were complete and actual equipment and material costs
known (GAO #3). Lastly, as Figure 6 illustrates, the profit that KBR and its
subcontractors derived from the markup increased proportionally to increases in
material costs (GAO #4). KBR agreed to pay a                  markup on the
materials that                      purchased to repair the roofs damaged by
Hurricanes Ivan and Katrina. KBR also earned                 on every dollar
                spent on materials. Thus, for every additional dollar spent on
material, the profit KBR and                       derived by the markup increased
by a fixed percent.
   Markup (Profit)
   (in thousands)




                     $0.0           $0.5         $1.0        $1.5            $2.0   $2.5
                                            Material Charges (in millions)

                            Invoices from



Figure 6. Profit Derived From the Markup Provisions Increased
Proportional to Increases in Material and Equipment Charges

Obviously, the provisions encouraged the subcontractors to spend liberally on
material and equipment, as it meant more profit. Our review of the material costs
for the three roofing companies we visited shows that some of KBR’s
                                            33
                            FOR OFFICIAL USE ONLY
    subcontractors may have done just that. One would expect those companies to
    use the same “rough order of magnitude” of material to perform the same type of
    services. However, as Table 12 shows,                        material costs were a
    disproportionate higher percentage of labor when compared to that of the other
    companies used by KBR to repair the Navy’s damaged roofs.            and
                         material costs were 7.35 percent and 8.40 percent of labor,
    while The                  was 25.20 percent of labor. We question why
                   needed over 200 percent more material to provide the same roofing
    services and received a            profit on this material.

                         Table 12. Subcontractor Material Purchases

             Labor              $ 1,121,766   $     5,462,772   $     12,062,357
             Material           $    82,466   $       458,647   $      3,039,918
             Percent of Labor         7.35              8.40             25.20

    In addition, it appears many contractors bought more material than they required
    to complete the needed repairs. According to a NAVFAC Southeast technical
    representative, the Navy filled a warehouse with the excess inventory KBR turned
    over to the Government at the completion of the Hurricane Ivan recovery efforts.
    The representative also stated KBR turned over in excess of $900,000 left over
    material after the Hurricane Katrina recovery efforts in the New Orleans region.

    Assessment Needed. NAVFAC Southeast needs to request the Defense Contract
    Audit Agency review all the costs paid under the material markup provisions and
    determine what amounts relate to material handling costs and what amounts relate
    to profit. NAVFAC Southeast should request KBR to refund any amount
    determined to represent profit. We calculate that the Navy could recover as much
    as $7.2 million from KBR for the inappropriate payments. In addition, the Navy
    needs to develop procedures to address liability for excess material procured by
    commercial contractors.


Conclusion
    The CONCAP contract’s ordering procedures, as written, do not ensure that
    effective competition and reasonable pricing are obtained for hurricane recovery
    efforts. KBR waited until after the storms before it solicited and awarded
    subcontracts to obtain the labor and material needed to support the Navy’s
    recovery efforts. At that point, market forces were out of balance and, as stated
    by KBR, many subcontractors were only willing to perform the requested tasks on
    a time-and-materials basis. There was also intense political and public pressure to
    restore lost capabilities and to stabilize the buildings damaged to prevent their
    further damage, and demand for the labor and material needed to perform the
    repairs was at its peak. In light of all problems that occurred with the
    subcontracts awarded to support the three hurricane recovery task orders, we
    believe NAVFAC Southeast needs to establish procedures to verify that
    subcontracts used to support natural disaster recovery efforts that are anticipated
    to be valued at more than $1 million are adequately reviewed to ensure reasonable
    pricing has been obtained and the taxpayer funds are spent wisely. The Navy

                                        34
                        FOR OFFICIAL USE ONLY
    should also consider using DCAA’s services to help oversee the issuance of
    subcontracts used to support future natural disaster recovery efforts.


Recommendations, Management Comments, and Audit
Response
    B.1. We recommend the Commander Officer, Naval Facilities Engineering
    Command Southeast:

           a. Request a refund for $1,368,077 from Kellog, Brown, and Root for
    the unreasonable lease charge and fees associated with cooking equipment
    purchased by Commercial Marketing Corporation.

            b. Request the Defense Contract Audit Agency review all the costs
    paid under the material markup provisions and determine what amounts
    relate to material handling costs and what amounts relate to profit.

           c. Request Kellog, Brown, and Root to refund any amount paid under
    the material markup provisions determined to represent profit. We
    calculate this could result in the Navy recovering as much as $7.2 million
    from Kellog, Brown, and Root for the inappropriate payments.

    Management Comments. The Assistant Commander for Acquisition concurred
    and stated all payments on task order number 16 have been suspended. The
    Assistant Commander also stated that a Form I had been issued to KBR for the
    unreasonable lease charge and fees associated with the cooking equipment
    purchased by the Commercial Marketing Corporation and that NAVFAC would
    work with DCAA to determine what amount of the markups paid on the material
    purchased were improper and seek recovery as appropriate.

    Audit Response. We consider the comments responsive.

    B.2. We recommend the Commander Officer, Naval Facilities Engineering
    Command Atlantic:

           a. Establish procedures to verify that subcontract costs for natural
    disaster recovery efforts are adequately analyzed and only appropriate costs
    are included in the labor rate.

          b. Develop procedures to address liability for excess material
    procured by commercial contractors.

           c. Establish procedures to verify that subcontracts used to support
    natural disaster recovery efforts that are anticipated to be valued at more
    than $1 million are adequately reviewed to ensure that effective cost or price
    analysis is performed and that cost or pricing data are obtained when
    necessary.

    Management Comments. The Assistant Commander for Acquisition concurred
    and stated contracting officials will comply with required oversight of prime
    contractor’s internal controls on management and accounting systems. The
                                       35
                     FOR OFFICIAL USE ONLY
Assistant Commander also stated NAVFAC will conduct periodic reviews of the
contractor’s systems and major subcontracts as prescribed in the GCC contract
administration plan.

Audit Response. We consider the comments responsive.




                                  36
                FOR OFFICIAL USE ONLY
           C. Prime Contractor Costs
           NAVFAC Southeast contracting officials awarded KBR three task orders
           on its cost-plus-award-fee CONCAP contract for hurricane recovery
           efforts valued at about $229 million that were administered as prohibited
           cost-plus-percentage-of-cost (CPPC) contracts. This condition occurred
           because the NAVFAC Southeast contracting officials never obtained
           proposals from KBR and negotiated agreements for contract requirements
           that conclusively fixed the amount of fee or profit for a specific scope of
           work or level of effort. As a result, the award fee available to KBR of
           about               increased proportionally to costs expended in
           performance rewarding inefficiency and non-economical performance
           because higher costs meant higher profit to KBR.


Guidance
    United States Code. Section 2306(a) of title 10, United States Code prohibits the
    use of the CPPC system of contracting. The underlying intent of Congress in
    prohibiting the CPPC system of contracting was to protect the Government from a
    contractor who has a contract for payment of undetermined future costs to pay
    liberally for reimbursable items because higher costs means higher profit for him.

    Supreme Court Decision. Supreme Court in “Muschany v. United States, 324
    U.S. 49, 61-62 (1945)” addressed CPPC contracts.
           The purpose of Congress was to protect the Government against the
           sort of exploitation so easily accomplished under Cost-Plus-
           Percentage-of-Cost (CPPC) contracts under which the Government
           contracts and is bound to pay costs, undetermined at the time the
           contract is made and to be incurred in the future, plus a commission
           based on a percentage of these future costs. The evil is that the profit
           of the other party to the contract increases in proportion to that
           other party's cost expended in the performance. The danger
           guarded against by the Congressional prohibition was the incentive to a
           Government contractor who already had a binding contract with the
           Government for payment of undetermined future costs to pay liberally
           for reimbursable items because higher costs meant higher fee to
           him, his profit being determined by a percentage of cost.***
           Congress*** indicated it did not care how the contractor computed his
           fee or profit as long as the fee or profit was finally and conclusively
           fixed in amount at the time when the Government became bound
           to pay it by its acceptance of the bid [emphasis added].




                                             37
                       FOR OFFICIAL USE ONLY
           Test for Cost-Plus-Percentage-of-Cost Contracts. The Comptroller General of
           the United States has rendered numerous decisions6 involving the issue of
           whether certain types of contractual arrangements constituted prohibited CPPC
           arrangements. The guidelines applicable to this consideration and also referred to
           as the GAO “four-point test” are:

               GAO #1: payment for profit is based on a predetermined percentage rate,

               GAO #2: the predetermined percentage rate is applied to actual performance
                       costs,

               GAO #3: contractor entitlement is uncertain at the time of contracting, and

               GAO #4: contractor entitlement increases commensurately with increased
                       performance costs.


Cost-Plus-Percentage-of-Cost Task Orders
           NAVFAC Southeast administered the three largest task orders awarded to
           KBR on its cost-plus-award-fee CONCAP contract for hurricane recovery efforts
           as prohibited CPPC contracts.




6
    Such as Comptroller General Decisions on “Marketing Consultants International Limited,” 55 Comp.
    Gen. 554, B-183705 (December 10, 1975) and “Contracts -- Cost-Plus-a-Percentage-of-Cost Prohibition
    – Administrative Controls – Payment Basis,” 38 Comp. Gen. 38 (July 21, 1958).

                                                   38
                               FOR OFFICIAL USE ONLY
         Table 13 shows that KBR’s fee or profit was based on a predetermined percentage
         rate. Every time funds were added or subtracted from the task orders, KBR’s
         profit increased or decreased by the                  award fee rate (GAO #1).
         In essence, this means there was never an instance where a task overran or
         underrun.

                                        Table 13. Award Fee Increases
                      Task Order 2                          Task Order 16                       Task Order 17
            Estimated       Award     Fee          Estimated      Award      Fee       Estimated       Award     Fee
Mod. #         Cost          Fee     Percent          Cost          Fee     Percent       Cost          Fee     Percent
 Basic    $      96,154
 Basic          480,769                        $    144,231                           $ 12,019,231 $
   1         3,365,385                               -               -         -         2,884,615
   2         4,807,692                            4,279,384                                961,538
   3             -             -        -         3,893,693                                       -      -         -
   4         1,153,846                            7,500,000                              2,884,615
   5            195,386                           9,615,385                              3,302,087
   6            240,385                            (924,729)                               101,923
   7            197,940                              -               -         -         3,596,154                 -
   8         5,769,231                            2,884,615                                956,731
   9            450,000                           3,979,557                             32,274,323
  10            961,538                             705,769                                 -            -         -
  11         2,884,615                            9,615,385                                 -            -         -
  12            353,077                              -               -         -         2,410,730
  13         3,846,154                           10,865,385                                  (1,133)
  14         1,923,077                           (1,634,615)                            31,730,769
  15         8,653,846                            2,884,615                                480,769
  16         3,701,929                           11,538,462                                 -            -         -
  17         1,923,077                               -               -         -
  18             -             -        -         8,653,846
  19         1,611,350                              961,538
  20         2,405,000                            6,250,000
  21                                                480,769
 Total    $ 45,116,605                         $ 81,693,290                           $ 93,602,352



Fixed Fee or Profit
         NAVFAC Southeast contracting officials never received nor accepted a proposal
         from KBR that conclusively fixed in amount the fee or profit for any of the work
         on task order numbers 2, 16, and 17. As described in finding A, NAVFAC
         Southeast contracting officials did not establish whether the contracts were
         completion or term form contracts, and failed to request and obtain proposals
         from KBR or enter into negotiated agreements that conclusively fixed the fee or
         profit for a specific scope of work or level of effort. Accordingly, funds were
         added to the task orders based on calculations made by the Navy related to KBR’s
         “spend rate” and caused KBR’s award fee to be derived from actual performance
         costs (GAO #2).

         Contract Terms for Award Fee Calculation and Payment. The CONCAP
         contract included appropriate terms relating to the calculation of the award fee

                                                           39
                                FOR OFFICIAL USE ONLY
and payment aimed at preventing a CPPC system of contracting if the terms were
followed.
       Each task order will contain a maximum award fee, which is
       established by multiplying the total [negotiated target] cost of [the]
       individual task order by the contract award fee rate              The
       award fee will not be adjusted for cost overruns or when an order
       has been completed at less than the total cost estimated cost.
       Adjustments to the award fee will be made for modifications, which
       cause an increase or decrease to the scope of the delivery order.
       (NOTE: ALL REWORK WILL BE NON-FEE BEARING) [emphasis
       added]

However, without a cost proposal that related the award fee to a specific scope of
work or level of effort, the Navy could not determine overruns or underruns on
orders completed at costs more or less than estimated. We found the Navy
frequently modified the task orders to add additional funding (and potential award
fee) so KBR could continue working on previously requested tasks without first
determining whether the scope of work had changed. For example, modification
number 15 to task order number 2 increased the cost and associated award fee by
            in part to add additional funding to continue previously requested work
as well as to increase the scope of work. The modification stated:
       The purpose of this modification is to incorporate guidance for
       [buildings] 606, [and] 3910 and to add additional funding for continued
       stabilization.
       [Building] 606:
       The purpose of this modification is to continue with the permanent
       repairs to Building 606, previously identified by modification #[8].
       Further, the modification increases the scope of work to include
       permanent repairs to the roof system. The previous completion date
       of 4 November 2004, will be extended when additional technical
       direction is provided.
       [Building] 3910:
       The purpose of this modification is to continue with the permanent
       repair to NATTC barracks.          Specifically, this modification
       provides additional funds for the permanent repairs to [building]
       3910. [Emphasis added].

Although the contracting officer did add additional scope with the work
associated with the permanent repair to roofing system for Building 606, the work
associated with permanent repairs to Buildings 606 and 3910 did not identify any
scope increase. However, the award fee was increased for the total amount of the
modification.

Conversely, modification number 19 to task order number 2 valued at $1,675,000,
shows that funds associated with “savings” for previous efforts were moved to
other projects along with the award fee. Consequently, it was not possible for




                                        40
                   FOR OFFICIAL USE ONLY
    KBR to earn the full award fee on tasks that were completed at less than the
    estimated cost (funding level). The modification states:


           Building 3910:
           Perform additional repairs, including painting, carpeting, additional
           sheetrock, electrical switches, 3-inch firewall ratings, moving furniture,
           exterior caulking, and scaling. Funds for this are provided through
           savings from previous obligations for Building 3910 . . .
           Building 3901-08:
           Additional funds . . . are obligated for repairs to include: Painting,
           drywall corner and L bead, replace drywall base, add drywall 3-inch
           firewall rating, moving furniture and exterior caulking and sealing.
           Additional funds . . . are provided for the work through savings
           from . . . Building 3910.

    Consequently, the Navy was not following the CONCAP contracts terms and
    conditions associated with the award fee that required the available award fee to
    be fixed in amount and associated with a specific scope of work or level of effort
    to prevent a CPPC system of contracting. Instead, the Navy just added funds to
    the task orders based on calculations it made related to KBR’s “spend rate.” As a
    result, KBR’s available award fee ended up being derived from actual
    performance costs, which were clearly not certain until all the repairs were
    complete (GAO #2 and #3).


Award Fee Increased Proportional to Costs
    The award fee available to KBR of about               increased proportionally to
    increases in costs expended in performance and, thus, encouraged inefficiency
    and non-economical performance because higher costs meant higher profit to
    KBR (GAO #4).




                                              41
                       FOR OFFICIAL USE ONLY
Award Fee Increased Proportionally to Increases in Repair Costs. Figures 7,
8, and 9 show because the Navy added funds to the task orders based on
calculations related to KBR’s “spend rate,” the award fee pool and potential profit
that KBR could earn increased by             for every additional dollar KBR spent
repairing the Navy’s damaged infrastructure. Although it is conceivable that
KBR might not receive every dollar that was added to the award fee pool, the
figures also show that KBR received almost the entire amount added to the award
fee pools for the three task orders we reviewed. NAVFAC awarded KBR 100
percent of the money added to the award fee pool for task order number 2.
 (in millions)
  Award Fee




                 0     10               20             30              40       50

                             Contract Performance Cost (in millions)

                      Contract Modifications        Actual Award Fee Billings



Figure 7. Award Fee Earned on Task Order Number 2 Increased
Proportionally to Repair Costs

NAVFAC awarded KBR 96 percent of the money added to the award fee pool for
task order number 16.
 (in millions)
  Award Fee




                 0     20               40             60              80       100
                            Contract Performance Cost (in millions)
                      Contract Modifications        Actual Award Fee Billings

Figure 8. Award Fee Earned on Task Order Number 16 Increased
Proportionally to Repair Costs



                                         42
                     FOR OFFICIAL USE ONLY
NAVFAC awarded KBR 88 percent of the money added to the award fee pool for
task order number 17.




   (in millions)
    Award Fee




                   0             20               40            60              80        100
                                      Contract Performance Cost (in millions)

                                 Contract Modifications     Actual Award Fee Billings


Figure 9. Award Fee Earned on Task Order Number 17 Increased
Proportionally to Repair Costs

Rewarding Inefficiency and Non-Economical Performance. KBR received
additional fee or profit for inefficiency and non-economical performance because
higher costs meant higher profit.

    •          The Navy paid additional fees for numerous tasks that had to be redone
               due to poor workmanship. For example, the Navy tasked KBR to
               construct a number of trailer parks to house service members displaced by
               Hurricane Katrina. As a part of the task, KBR was required to provide
               each trailer stall with 200 amps of electricity and lay piping to supply
               water to the parks. However, the subcontractors KBR hired installed
               disconnects that limited the camps’ electrical grid to 100 amps and failed
               to lay the piping to the depth prescribed by the local building code. These
               deficiencies caused insufficient electricity to be supplied to the trailer
               stalls and led to numerous pipes being broken when the Navy installed tie-
               down straps on the trailers as a preventive measure against future
               inclement weather. Thus, the contracting officer issued technical direction
               number 46 of task order number 16 to add an additional $200,000
               (inclusive of additional award fee), to “[c]omplete electrical work at
               [recreation vehicle parks in addition to repairing plumbing and electrical
               damage done by Mobile Home installing contractor.” In another instance,
               the Navy tasked KBR to restore the Navy Lodge to its pre-storm
               condition. However, after a year of substandard performance that caused
               numerous repairs to be reworked, the Navy directed KBR to leave the
               work site and hired another contractor to correct the deficiencies with
               KBR’s workmanship and to complete the renovations.

    •          KBR also provided questionable management of its subcontractors. For
               example, one of the technical experts that the Navy used to assess KBR’s
                                             43
                         FOR OFFICIAL USE ONLY
           performance stated in his evaluation that his “rub with KBR was how
           blind they were to their performance on the mold issue. Despite our
           constant harping on them, they continued with the same [subcontractor],
           who was extremely inefficient and lacking in what our needs were. For
           example, they pack[ed] a BEQ room for 4-5 workers who [did not] really
           know what they were doing, while at CDC, one worker proudly showed
           me the 20 soda cans that he had just decontaminated, meanwhile mold
           was growing. It got to a point, where [NAVFAC Southeast] brought in
           two mold companies.” Another of the technical experts the Navy used
           stated he “witnessed 10-15 workers sweeping water around in a parking
           lot with no apparent supervision. KBR received its fee for every hour its
           subcontract employees worked, even the unproductive hours.


Conclusion
    Under the terms of the contract, the maximum award fee (or potential profit) KBR
    could earn was supposed to be established by multiplying the negotiated target
    cost for the tasks requested by the            contract award fee rate (GAO #1).
    However, because NAVFAC Southeast contracting officials failed to relate fee or
    profit to a specific scope of work or level of effort (finding A), the
    contract award fee rate was applied to actual performance costs (GAO #2), which
    were uncertain at the time of contracting (GAO #3). As a result, the maximum
    award fee that KBR could earn increased proportionally to performance costs and
    encouraged KBR to perform inefficiently and non-economically, as increased cost
    meant increased profit (GAO #4). Based on the illegal CPPC system of
    contracting that was inadvertently created for the CONCAP contract hurricane
    recovery task orders, NAVFAC Southeast needs to determine whether the amount
    paid to KBR represents the fair and reasonable value of services accepted, and if
    not, take appropriate action to recover the excessive award fee.


Recommendation, Management Comments, and Audit
  Response
    C. We recommend the Commanding Officer, Naval Facilities Engineering
    Command Southeast determine whether the amount paid to KBR represents
    the fair and reasonable value of services accepted, and if not, take
    appropriate action to recover the excessive award fee.

    Management Comments. The Assistant Commander for Acquisition disagreed
    that the Navy administered the hurricane recovery task orders as illegal CPPC
    contracts. The Assistant Commander stated that the Navy task orders were
    administered as authorized cost-plus-award-fee contracts because the Navy
    conducted a subjective evaluation of KBR’s performance in order to determine
    KBR’s fee rather than calculating KBR’s fee as a straight percentage of costs.
    The Assistant Commander further stated that, as a result of the subjective
    evaluation, the contracts do not constitute illegal CPPC contracts. The Assistant
    Commander cited Comptroller General Decision B-217211, United Food
    Services, Inc., and National Electronic Laboratories, Inc. v. United States, 148
    Ct. CI.308, 313-14 180 F. Supp. 337 (1960) to support his position that a CPPC
                                       44
                     FOR OFFICIAL USE ONLY
system of contracting does not exist when the contract provides for contractor’s
performance and “efficiency, economy, and ingenuity” to be examined before
awarding compensation to a contractor.

Audit Response. We do not consider management’s comments to be responsive.
The Navy has commented that the CONCAP contract is a lawful cost-plus-award-
fee contract in accordance with criteria set forth by the Comptroller General.
However, an examination of the Comptroller General criteria reveals that the
Navy failed to structure the award fee framework to prevent the contract from
operating as a CPPC contract. The Navy likened the CONCAP task order
contracts to the contract that the Comptroller General in United Food Services,
Inc., found to be a cost-plus-award-fee contract authorized by the FAR and did
not constitute a CPPC contract. The Comptroller General in United Food cited
two measures that operate to safeguard against the contractor’s incentive to
increase performance cost.
       First, we note that a cost-plus-award-fee type of contract is authorized
       under the FAR, 48 C.F.R. §§ 16.305 and 16.404-2. It is distinguished
       from a prohibited cost-plus-a-percentage-of-cost contract, as the latter
       automatically allows the contractor a fee based on a fixed percentage
       which increases unchecked as costs increase, thus providing an
       incentive for inefficient performance. United Food Services Inc.
       offered no evidence that this would be the case under the Army’s
       proposed cost-plus-award-fee method of reimbursement. To the
       contrary, as discussed above, the award fee rewards efficient
       performance and so, while with increased costs the base for the fee
       calculation will be higher, the amount of fee to which the
       contractor will be entitled will decrease as contractor costs
       increase. Also, the total fee is subject to a fixed dollar ceiling.
       [emphasis added]

Consequently, although the Award Fee Determination Board can provide an
objective evaluation of the contractor’s performance providing that the contractor
might not get the entire percentage of costs, the Navy has not shown that the
award fee penalized inefficient performance by decreasing when costs increase
and the total fee was not subject to a fixed dollar ceiling. Therefore, the
CONCAP contract fails to be analogous to the contract in United Food Services,
Inc., that included an award fee that not only penalized inefficient performance
but was also subject to a fixed dollar ceiling. Similarly, in National Electronic
Laboratories, the contract had a price revision clause with a specific limit by
which the revised price could not exceed. As noted in Marketing Consultants, the
fact that the contractor may get a lesser percentage fee does not eliminate the
incentive for the contractor to increase costs. Therefore, we request the Navy to
provide additional comments to the final report that address the specific
recommendation.




                                         45
                   FOR OFFICIAL USE ONLY
           D. Award Fee Determinations
           NAVFAC contracting officials did not adequately support the award fee
           determinations for the hurricane recovery task orders. Specifically, the
           Navy failed to capture the information needed to effectively assess how
           well KBR controlled costs and did not reconcile the contracting officers’
           and technical representatives’ assessments against each other or the
           characteristics identified in the award fee plan. As a result, despite
           numerous performance deficiencies the Navy authorized KBR be paid
           94 percent of the available fee for the task orders we reviewed for what
           appears to be marginal-to-average performance and the Navy cannot
           adequately defend award fee determinations in excess of                for
           its hurricane recovery efforts.


Guidance
    FAR Subpart 16.405-2, “Cost-Plus-Award-Fee Contracts,” states that an award
    fee is “an award amount that the contractor may earn in whole or in part during
    performance and that is sufficient to provide motivation for excellence in such
    areas as quality, timeliness, technical ingenuity, and cost-effective management.
    The amount of the award fee to be paid is determined by the Government’s
    judgmental evaluation of the contractor’s performance in terms of the criteria
    stated in the contract. This determination and the methodology for determining
    the award fee are unilateral decisions made solely at the discretion of the
    Government.”


Award Fee Determinations
    The Navy paid KBR a high percent of the available award fee for what appears to
    be marginal-to-average performance for the hurricane recovery task orders we
    reviewed. Despite numerous performance deficiencies, the Navy concluded that
    KBR’s performance had generally to substantially exceeded expectations and, as
    Table 14 shows, awarded KBR                or 94 percent of the           fee
    available.

       Table 14. KBR's Award Fee for Task Order Numbers 2, 16, and 17
                                                           Award Fee
        Task        Award       Percent        Available     Rating    Amount
        Order      Fee Pool    Complete        Amount       Percent     Paid
          2                      100
         16                      100
         17                       79
        Total
                                                       .




                                          46
                     FOR OFFICIAL USE ONLY
         Award Fee Determination Process. Every 4 months the Performance and
         Award Fee Evaluation Boards evaluate KBR’s performance on open task orders
         and submit a formal report to the fee determination official with a
         recommendation of how much of the available fee KBR should be awarded. For
         the task orders we reviewed, the contracting officers requested Navy technical
         representatives to rate KBR’s performance against the criteria contained in the
         award fee plan for the following areas: cost control, responsiveness, effective
         performance (quality), and overall contract program management. They also
         obtained self-evaluations from KBR. Using that data, the contracting officers
         prepared and submitted consolidated reports to the boards that summarized their
         evaluation of KBR’s performance and recommended how much of the available
         fee KBR should be awarded.7 The following identifies the possible ratings and
         scores that KBR could have been assigned and the percent of available fee each
         rating dictates be awarded.

             •    Level I: Performance substantially exceeds expectations (92–100). Rating
                  results in being awarded 96–100 percent of the available fee.

             •    Level II: Performance generally exceeds expectations (85–91). Rating
                  results in being awarded 65–91 percent of the available fee.

             •    Level III: Performance meets expected levels (76–84). Rating results in
                  being awarded 28–59 percent of the available fee.

             •    Level IV: Performance does not meet levels (61–75). Rating results in
                  being awarded 1–20 percent of the available fee.

             •    Level V: Performance is unacceptable (60 and below). Results in no fee.

         Upon receipt of the reports, the boards discussed the contracting officers’
         recommendations and came to a consensus on how well KBR performed and
         whether the suggested award fee payout was acceptable. A formal award fee
         evaluation report was then prepared and forwarded to the fee determination
         official for review and approval and a letter was sent to KBR to convey the
         results. See Appendix D for a copy of the award fee plan.

         Hurricane Recovery Task Order Performance Evaluations. The contracting
         officers’ and technical representatives’ statements do not support the award fee
         ratings. Specifically, the Navy failed to capture the information needed to
         effectively assess how well KBR controlled costs and did not reconcile the
         assessments made by the contracting officers and technical representatives against
         each other or the characteristics identified in the award fee plan to be associated
         with the various expected levels of performance.

                Task Order Number 2. Table 15 shows the NAVFAC Southeast
         contracting officials reported that the performance of KBR had substantially

7
 The recommendation of how much fee should be awarded to KBR is derived by multiplying each area’s
proposed score by the appropriate weight and then totaling the results to derive a summary performance
score. The award fee conversion chart is then used to convert that value into the percent of the available
award fee to be paid out. See Appendix D.



                                                    47
                              FOR OFFICIAL USE ONLY
    exceeded expectations for all areas evaluated and recommended they be given an
    overall performance score of 100 and be awarded 100 percent of the available
    award fee.

            Table 15. Task Order Number 2 Award Fee Recommendations
                       Rating Factor                   Rating    Weight          Score
         Cost control                              Level I         30             100
         Responsiveness                            Level I         30             100
         Effective performance (quality)           Level I         30             100
         Overall contract program management       Level I         10             100
         Overall performance score                                                   100
         Recommended award fee payout                                         100 Percent

    Although statements made by the officials involved in managing the task order
    support that the performance of KBR had substantially exceeded the Navy’s
    expectations, KBR’s ability to control costs could not be properly evaluated
    without effective implementation of the ordering procedures and tracking how
    much was spent to accomplish each task requested. The Navy failed to negotiate
    target costs for the tasks requested and did not measure how much KBR spent to
    complete each task. Thus, it is impossible to determine whether KBR completed
    the tasks in an efficient and cost-effective manner. None of the examples listed to
    support that “KBR provided cost effective solutions to work” identify a concrete
    example of actions taken by KBR that minimized or reduced costs or highlighted
    instances of where products were delivered below a negotiated amount. With all
    the problems that have been identified with KBR’s cost control efforts and
    subcontract costs, we question how KBR could be rated any higher than what the
    award fee plan describes as “Level III” performance for cost control (see findings
    A, B, and C and Appendix D).

            Task Order Number 16. The statements made by the contracting officer
    and technical evaluators do not support the award fee ratings that KBR received
    for task order number 16. In addition, as Table 16 shows, there was also a
    considerable difference between the ratings that the contracting officer and
    technical evaluators felt best reflected KBR performance.

                  Table 16. Task Order Number 16 Award Fee Recommendations
                                       Contracting Officer                   Technical Evaluators
                                                                     Number 1                   Number 2
             Rating Factor             Rating          Score     Rating      Score          Rating     Score
Cost control                           Level II         90.0    Level IV      61.0
Responsiveness                         Level I          93.0    Level III     76.0         Level IV 65.0 - 68.0
Effective performance (quality)        Level I          92.0    Level V       50.0         Level IV 62.0 - 64.0
Overall contract program management    Level II         90.0    Level IV      61.0         Level IV 65.0 - 68.0
Overall performance score                               91.5                  62.0                      65.0
Recommended award fee payout                      96 Percent                2 Percent                5 Percent


    Contracting Officer Statements for the “Cost Control” Rating Factor. The
    contracting officer stated that the comments provided by technical representatives
                                                  48
                             FOR OFFICIAL USE ONLY
who were on site during hurricane relief efforts were considered when
determining KBR’s performance level for the “Cost Control” rating factor. The
contracting officer provided the following statements to the Performance and
Award Fee Evaluation boards to justify giving KBR a “Level II” rating.
       KBR was asked to track and project costs on a daily basis and were
       able to react to changes in projected funding availability. In order to
       add a more conscious cost control, KBR was requested to provide
       [estimates of what it would cost to complete each task requested].
       Significant material and equipment savings were realized during the
       procurement activities associated with the tent camp. The HVAC units
       for the berthing, galleys, and shower tents were negotiated to bring
       down costs to $2,752 per unit; equating to a total savings of $462,000
       over the original estimated price. KBR was able to generate a cost
       saving of $2,400,000 by using the base system for electrical power
       instead of . . . renting generators.
       A significant reduction in scope by the client caused an excess in
       material already procured. KBR did attempt to minimize the cost
       impact that would have been realized by requiring restocking/return of
       these materials. For example, the laundry facilities at the RV parks
       were designed around excess material, which included 2x6 structural
       components, 3/4” plywood, a five ton air conditioning unit and on hand
       electrical components. In addition, the decks for the child development
       center, which covered over 10,000 square feet, were also built from
       excess tent camp material. A large percentage of the electrical and
       plumbing supplies required for the mobile home parks were also
       supplied from excess material. Similarly, one of the largest roofs on
       base was roofed with excess material from Hanger 5.
       There was still a large amount of excess material remaining [at
       project completion]. It is the Government’s position that KBR did
       not exhaust the potential for greater re-use or re-sell efforts. Based
       on the recovery effort of the Gulf Coast, there is still a need for
       plywood. The excess inventory list identifies over 2,936 sheets of
       treated plywood and 3,168 sheets of cabinet grade plywood. Total
       excess inventory totals [approximately] $76,858.00.
       The process of getting competitively priced subcontracts in place
       and ready for immediate execution seemed to pose significant
       difficulty for KBR. Because of the local market conditions, KBR was
       issuing most of their subcontracts in a Time/Material environment
       which require more supervision than fixed price subcontracts.
       As the project was nearing completion, ROICC CONCAP and KBR
       worked the exit plan and had agreed to the remaining funding required
       to complete current commitments. KBR neglected to adequately
       account for completing the presently assigned work. That error
       resulted in approximately $2 million in additional budgetary
       funding. Even though KBR had prepared [cost estimates] for the
       work, they discovered that they had not included the full amount of
       applicable overheads which resulted in substantial costs that had
       not been included in the previous agreed to budget plan [emphasis
       added].



                                         49
                   FOR OFFICIAL USE ONLY
Although the contracting officer cited actions that KBR took that may have
minimized costs, many more instances were identified that highlighted actions or
inactions that resulted in the Government incurring more costs than necessary.
For example, it was the Government’s position that KBR did not go far enough to
minimize the cost impact that a significant reduction in scope by the client had.
The contracting officer also noted the Navy felt that KBR had not utilized
competition effectively in awarding the subcontracts and provided inaccurate cost
estimates that required the Navy to increase its funding requirements by
approximately $2 million.

Technical Evaluator Statements for the “Cost Control” Rating Factor. The
contacting officer also failed to account for numerous instances identified by the
technical representatives where substandard workmanship increased costs. The
technical evaluators who were asked to assess KBR’s performance reported that:

       Work associated with mobile homes and [recreational vehicle] sites
       was not completed within negotiated costs. KBR did not strive to
       minimize costs. [Government] had to pay added costs for KBR to
       rework and correct work in violation of applicable codes. One
       laundry facility remains unusable.
       I concur with . . . comments on this evaluation items about the
       amount of rework that had to be performed (at the government’s
       expense) due to design/workmanship and quality issues. We
       certainly paid twice for some of the work that was done directly
       because of design and workmanship deficiencies on the part of
       KBR.
       It’s my humble opinion, but there is no way on God’s green earth
       that you have blown through $500,000 in the work for this
       [technical direction]. If this is the case, then I need a breakdown of
       the costs for the work to date particular to this [technical direction]
       #45 [Emphasis added].

When those statements are also considered, KBR’s actual success in controlling
costs seems most consistent with what the award fee plan describes as
characteristic of “Level IV” performance (see Appendix D).

Contracting Officer Statements for the “Effective Performance [Quality]”
Rating Factor. The contracting officer considered comments provided by
technical representatives who were on site during hurricane relief efforts when
determining KBR’s performance level for the “Effective Performance [Quality]”
rating factor. The contracting officer provided the following statements to the
Performance and Award Fee Evaluation boards to justify giving KBR a “Level I”
rating.
       The environment in the aftermath of Katrina tremendously increased
       the difficulty of executing work. The surrounding infrastructure and
       local labor pool was decimated. Housing for the labor was non-
       existent. The only option was to house the workforce in tents, and RVs
       at an abandoned airfield at the Naval Air Station. KBR should be
       commended on the efforts to accommodate the volume of individuals
       and maintain cleanliness and safety.



                                        50
                   FOR OFFICIAL USE ONLY
       Numerous complaints were brought to the attention of the
       Program Manager regarding the initial NSA Site Supervisor’s
       performance, and he was quickly replaced.
       Both temporary and permanent roofing contractors, with a highly
       skilled workforce well practiced in CONCAP hurricane recovery
       operations, were used for NSA and NAS. Temporary repairs were
       completed quickly and efficiently and permanent roofs at the Naval Air
       Station are of the highest quality by everyone’s account.
       ROICC CONCAP coordinated with the base to ensure the security of
       the base, as well as meeting contractual requirements on the process of
       ensuring proper screening and documenting of the workforce. KBR
       was very proactive in the process to ensure proper workforce is
       working on the multiple federal installations covered by the CONCAP
       task orders.
       KBR was constantly redirected due to changing guidance relative to
       the application of the mold specifications and difficulties in obtaining
       and maintaining access to the facilities requiring the work. Despite the
       fact that the scope was being changed routinely and being faced with
       numerous other challenges, construction was fully and successfully
       completed within budget and schedule due to KBR’s willingness to
       work through these issues.
       KBR’s comprehensive safety programs ensured absolutely no lost time
       accidents in over 700,000 work hours. The speed in which KBR
       mobilized and brought the required resources on the critical mission
       requirements while maintaining safety, at the Naval Air Station and the
       Naval Support Activity were exceptional, considering the complete
       breakdown in civilian infrastructure in the surrounding area.
       Trailer and pre-manufactured homes sites were built at both the Naval
       Air Station and the Naval Support Activity, including air conditioned
       laundry facilities complete with restrooms, 16 washers and 20 dryers,
       and electrical water heaters.          However, there were poor
       workmanship and design code violations, which impacted
       completion of Mobile Home sites, RV sites, and several building
       exterior repair sites. There were numerous problems with
       workmanship, electrical code (both design and workmanship)
       [that] resulted in rework and additional costs.
       Navy has requested that KBR provide a warranty binder that
       includes the warranty, name of contractor who performed the
       work with point of contact information, technical manuals,
       warranty information, as-builds, asbestos/mold survey and
       clearance documents... To date, that information has not been
       received. ACO even specifically requested the information just for
       the trailer/mobile homes be provided ASAP, as the information
       was urgently needed to provide to the mobile home contractor in
       order to assist in the maintenance of the lift stations. To date, that
       information has not been received as well [emphasis added].

Again, although the contracting officer cited instances where KBR performed
effectively, the contracting officer identified just as many instances where KBR’s
performance was substandard. For example, poor workmanship and design code
violations affected the completion of mobile home sites, recreational vehicle sites,

                                         51
                   FOR OFFICIAL USE ONLY
and several building exterior repair sites and resulted in rework and additional
costs. The contracting officer also noted the Navy repeatedly requested KBR to
provide a warranty binder that includes the warranty, name of contractor who
performed the work with point of contact information, technical manuals,
warranty information, as-builds, asbestos/mold survey, and clearance documents.
To date, the Navy has not received that information.

Technical Evaluator Statements for the “Effective Performance [Quality]”
Rating Factor. In addition, the contracting officer’s statements fail to convey the
full extent of some of the deficiencies the technical evaluators noted with the
quality of the products and services that KBR provided and at times seem to
justify the problems KBR encountered or contradict descriptions the technical
evaluators provided for the same work. For example, one technical evaluator
reported that KBR had

       [N]umerous problems with workmanship, electrical code violations
       (both in design and workmanship), rework items, handling and
       coordination of subcontractors, ineffective Quality Control,
       damage to facilities (Navy Lodge) during repair renovation,
       delayed or missing documentation (as-builds for the mobile home
       sites) [emphasis added].

Another technical evaluator reported that:

       Quality products/materials [were] not provided in the construction
       of [the mobile home and Recreational vehicle] sites and BOQ
       facility at NSA. Electrical conduit fittings and boxes and wiring
       methods did not comply with codes.

       Poor on-site management and resources resulted in numerous
       areas of rework and added [to the Government’s cost]
       Subcontractor choice and KBR’s lack of quality control
       contributed to unsatisfactory results in subcontractor
       workmanship and selection of materials.
       Ineffective communication and coordination with [Government
       personnel existed though most of the planning and execution of
       tasks. [emphasis added]

Clearly, the extent of the problems that KBR had completing tasks was more
extensive than what the award fee plan identifies as characteristic of “Level I’’
performance. The descriptions provided of the quality of the products and
services delivered by KBR seem most like what the award fee plan describes as
“Level IV” performance (see Appendix D). We noted similar issues with the
other rating factors as well.

       Task Order Number 17. The statements made by the contracting officer
and technical evaluators do not support the award fee ratings that KBR received




                                      52
                  FOR OFFICIAL USE ONLY
                for task order number 17. Table 17 shows that there was also a considerable
                difference between the ratings that the contracting officer and technical evaluators
                felt best reflected KBR’s performance.

                             Table 17. Task Order Number 17 Award Fee Recommendations
                                          Contracting Officer                              Technical Evaluators
                                                                         No. 1                     No. 2                  No. 3
             Rating Factor                 Rating      Score       Rating        Score      Rating         Score    Rating        Score
Cost control                              Level II      90.0         -            -            -            -         -            -
Responsiveness                            Level II      90.0      Level III      88.0       Level II       85.0     Level I       96.0
Effective performance (quality)           Level II      90.0      Level III      88.0       Level II       85.0     Level I       92.5
Overall contract program management       Level II      90.0      Level II       89.0          -            -         -            -
Overall performance score                               90.0                     88.3                      85.0                   94.0
Recommended award fee payout                         88 Percent               80 Percent               65 Percent             97 Percent


                Contracting Officer Statements for the “Responsiveness” Rating Factor. The
                contracting officer stated comments provided by technical representatives who
                were on site during hurricane relief efforts were considered when determining
                KBR’s performance level for the “Responsiveness” rating factor. The contracting
                officer provided the following statements to the Performance and Award Fee
                Evaluation boards to justify giving KBR a “Level II” rating.
                             KBR was issued Task Order 0017 on 30 August 2005 and began
                             reporting to NCBC Gulfport on the same day. They mobilized, set up
                             and became fully operational in two days where substantial emergency
                             recovery efforts were underway. Subcontracts were awarded for
                             primary and secondary electrical power distribution repairs, debris
                             removal and stabilization of facilities, which included dry-in and dry-
                             out. Their base camp was located in a warehouse at NCBC where they
                             set up offices, telephone and broadband Internet capability. Within a
                             week they built a temporary shower and restroom facility for all of
                             KBR’s staff, subcontractors and government personnel since all were
                             sharing the same warehouse for berthing over the next five weeks.
                             KBR’s initial major tasking was to restore the power to the base.
                             Crews worked around the clock to restore electrical power, which
                             occurred in the first ten days. Due to the power outage, the lift stations
                             were inoperable. It became critical because the base sewage began
                             backing up in the system and was about to overflow and discharge into
                             the environment. A verbal direction was given at 11pm at night and by
                             8 am the next morning; KBR had vacuum trucks working around the
                             clock to collect, transport, and dispose base sewage, preventing a
                             serious environmental incident.        Their quick response allowed
                             personnel uninterrupted usage of restroom facilities across the base.
                             KBR was slow to mobilize their roof assessment teams. This
                             requirement was clearly identified in the contract and after insisting on
                             a schedule to begin, a team was finally mobilized. The Government’s
                             roofing specialist spent a lot of time advising their team on what was
                             needed to meet the contract requirements which was clearly a
                             contractor responsibility. While the end product was acceptable,
                             this delay caused by the lack of preparation of the KBR roofing

                                                                  53
                                         FOR OFFICIAL USE ONLY
               assessment team was not. KBR’s task order also contained a
               requirement for permanent roof repairs. They were awarded
               various roofs and required to give the Navy their initial roofing
               submittals. There were several delays in their submission causing
               an overall delay for the roof repairs. The Navy wanted the roofs
               completed by the end of [December 2005] and KBR initially said
               they could meet the schedule. However, due to the submittal
               delays, they were not able to meet their commitments.

Although the contracting officer cited instances where KBR was responsive, other
occurrences were identified that affected KBR’s ability to perform requested tasks in
established time frames. KBR did not respond in a prompt and thorough manner in all
critical situations.

Technical Evaluator Statements for the “Responsiveness” Rating Factor. The
contracting officer also excluded a number of deficiencies the technical evaluators noted
with the responsiveness of KBR that caused the extent and impact of the problems KBR
encountered to be understated. Specifically, the technical evaluators asked to assess
KBR’s performance reported that:

               Dry-in and dry-out teams had their problems in the first two
               weeks, including showing up at the wrong place or time and
               missing escorts needed to take teams through buildings, teams
               being turned away at gates with improper identification, etc. A
               Certified Industrial Hygienist was brought in under a separate
               contract to certified buildings rather than utilizing the [Certified
               Industrial Hygienist] from KBR’s subcontractor. Additionally,
               KBR initially had difficulty providing enough roofers to make
               needed repairs.

               Dry-out was exceedingly substandard despite constant Government
               concerns, [KBR] continued with their plan with disregard to schedule
               and cost – forced the Government to pay for dry out with other
               contractors.

               KBR was slow to mobilize their roofing assessment teams. This
               requirement was clearly identified in the contract requirements and
               after insisting on a schedule to begin these assessments, a team was
               finally mobilized. The initial personnel sent down to perform this
               service were less than desirable, but eventually they were able to
               mobilize acceptable teams to complete the work with a lot of
               guidance from [the Navy roofing specialist]. This is a very
               important item and KBR in my opinion initially failed and did not
               use the subs the government recommended, instead [used] small
               mom & pop team.

               I do not believe that the overall [Program Manager] . . . had a good
               handle on some major issues that were occurring. There were
               numerous times we met and he said things were taken care of, yet
               it did not happen. An example being the temporary roofing element.
               Time and time again we would ask about certain critical [buildings]
               and [were] told they would be dried in soon. We were very fortunate
               that it did not rain hardly any for 4 weeks after the storm thus


                                               54
                          FOR OFFICIAL USE ONLY
       preventing a lot of further damage to facilities that were not dried
       in.

       Contractor generally provided responsive service however roof
       repairs that were requested in 60 days but took twice the time.
       Contractor failed to get adequate roofing crews and the qualit[y] of
       crews [was] average to poor. Submittal were hard to get from
       Contractor.

When that information is also considered, the responsiveness of the support KBR
provided seems more indicative of what the award fee plan describes as
characteristic of “Level IV” performance (see Appendix D).

Contracting Officer Statements for the “Effective Performance [Quality]”
Rating Factor. The contracting officer considered comments provided by
technical representatives who were on site during hurricane relief efforts when
determining KBR’s performance level for the “Effective Performance [Quality]”
rating factor. The contracting officer provided the following statements to the
Performance and Award Fee Evaluation boards to justify giving KBR a “Level II”
rating for the “Effective Performance [Quality]” rating factor.
       The environment in the aftermath of Katrina tremendously increased
       the difficulty of executing work. The surrounding infrastructure and
       local labor pool was decimated. Housing for the labor was non-
       existent. The only option was to house the workforce in tents, and RVs
       at various locations on the Base. KBR should be commended on the
       efforts to accommodate the volume of individuals and maintain
       cleanliness and safety.
       ROICC CONCAP coordinated with the base to ensure the security of
       the base, as well as meeting contractual requirements on the process of
       ensuring proper screening and documenting of the workforce. KBR
       was very proactive in the process to ensure proper workforce is
       working on the multiple federal installations covered by the CONCAP
       task orders.
       The quality of KBR’s workmanship on the roofs initially did not
       meet contract requirements. KBR struggled with its QC program
       and was eventual issued a non-compliance notice on 09 December
       2005 for failure to implement an effective Program. Corrective
       measures were proposed and partially applied by the contractor.
       However, the government continued to observe undocumented
       deficiencies . . . [that] had the potential to compromise the integrity
       of the final finished roof.
       However, overtime and with Government oversight, Gulfport
       achieved a high level of roofing workmanship.

Again, although the contracting officer cited instances where KBR performed
effectively, the contracting officer identified as many incidents where KBR’s
performance was substandard. The products and services that KBR provided
were not of predominantly high quality in form and content.

Technical Evaluator Statements for the “Effective Performance [Quality]”
Rating Factor. In addition, although the contracting officer included some

                                         55
                   FOR OFFICIAL USE ONLY
    deficiencies the technical evaluators noted with the quality of the products and
    services that KBR provided, the extent of the problems KBR encountered was not
    fully presented. For example, the technical evaluators also reported that:

           Although the building envelope and utilities were performed
           satisfactory, building dry-out and mold remediation were very
           poor – subcontractor management was unacceptable.
           Contractor failed to implement an effective quality control
           program. The quality control staff was chronically undermanned
           and inadequately trained. After repeated prodding Contractor
           provided somewhat better staffing and improved documentation of
           work by submitting daily production and quality control reports. The
           contractor never fully trained and staffed quality control program
           which resulted in areas where the work was substandard.

    Clearly, the extent of the problems that KBR had completing tasks were more
    extensive than what the award fee plan identifies as characteristic of “Level II’’
    performance. The KBR quality control program was ineffective, insufficient, or
    incompetent resources were devoted to fulfilling requirements; and numerous
    problems occurred with workmanship. All of these resulted in increased cost and
    products being delivered late. When all the information available is considered,
    the quality of the support delivered by KBR seems most like what the award fee
    plan describes as “Level IV” performance (see Appendix D). We noted similar
    issues with the other rating factors as well.


Conclusion
    Award fees are designed to motivate excellence in performance in terms with the
    criteria stated in the contract. However, NAVFAC paying out nearly all of the
    available award fees to KBR regardless of whether the acquisition outcomes fell
    short, met, or exceeded expectations lessened the motivation of KBR to strive for
    excellent performance. As a result, NAVFAC awarded KBR the majority of the
    available award fees for what appears to be marginal-to-average performance
    with no means to effectively evaluate cost control on the hurricane recovery task
    orders. If the recommendation made in findings A, B, and C are implemented, the
    Navy will have the information needed to effectively assess how well costs were
    controlled. Therefore, we are not making a recommendation relating to this issue.
    However, NAVFAC needs to establish procedures to reconcile the assessments
    made by the contracting officer and technical representatives against each other
    and ensure written statements match the performance ratings.


Recommendation, Management Comments, and Audit
  Response
    D. We recommend the Commander Officer, Naval Facilities Engineering
    Command Atlantic establish procedures to verify that award fee
    assessments made by the contracting officer and technical representatives


                                          56
                      FOR OFFICIAL USE ONLY
are reconciled against each other and ensure written statements match the
performance ratings.

Management Comments. The Assistant Commander for Acquisition concurred
and stated that the contracting officer will be responsible for collecting the award
fee assessments from technical representatives and forwarding them to the
NAVFAC Atlantic contracting officer. The task order contracting officer may
provide additional input to the award fee board for consideration; however, the
assessment from the technical representative shall not be altered. Appointed
technical representatives to the contract and task orders will be advised of the
award fee plan and its application to the task order. The award fee evaluation
process will be reviewed at the GCC training session.

Audit Response. We considered management’s comments responsive.




                                     57
                  FOR OFFICIAL USE ONLY
Appendix A. Scope and Methodology
    We performed this audit from January 2006 through February 2008 in accordance
    with generally accepted government auditing standards. Those standards require
    we plan and perform the audit to obtain sufficient, appropriate evidence to
    provide a reasonable basis for our findings and conclusions based on our audit
    objectives. We believe the evidence obtained provides a reasonable basis for our
    findings and conclusions based on our audit objectives.

    We reviewed task order numbers 2, 16, and 17 under the CONCAP contract, the
    three largest task orders the Navy issued to KBR for recovery efforts relating to
    Hurricanes Ivan and Katrina. Specifically, we reviewed how the Navy assessed
    the storm damage and identified and assigned tasks. We also reviewed how
    NAVFAC Southeast monitored and evaluated KBR’s performance, as well as
    NAVFAC Southeast’s method of controlling costs and ensuring it paid a fair and
    reasonable price for the labor and material used to repair damaged infrastructure.

    We visited NAVFAC Southeast contracting personnel in Charleston, South
    Carolina, to review contract files for the three task orders. We also met with
    representatives from KBR and three of the roofing subcontractors that repaired
    roofs damaged by the storms. We obtained and reviewed documentation to
    support KBR’s charges, the composition of the labor rates paid, and the material
    and equipment purchased. Further, we visited the Naval Air Station Joint Reserve
    Base and Naval Support Activity in New Orleans, Louisiana, and the Naval Air
    Station in Pensacola, Florida, to observe the recovery work that KBR performed
    under the CONCAP contract.

    Use of Computer-Processed Data. We relied on computer-processed data from
    KBR’s billing system to include the invoices paid by the Navy. To verify the
    accuracy of the information, we compared the charges shown on KBR’s invoices
    to amounts contained in KBR’s payroll records and other documentation related
    to KBR’s travel and other direct costs, as well as to amounts shown on documents
    obtained during our visit with a number of the subcontractors that KBR hired to
    support the Navy’s hurricane recovery work.

    Use of Technical Assistance. We did not use technical assistance to perform this
    audit

    Government Accountability Office High-Risk Area. GAO has identified
    several high-risk areas in DoD. This report provides coverage of the “Defense
    Contract Management” high-risk area.


Prior Coverage
    During the last 5 years, GAO, the DoD Inspector General (IG), and the U.S.
    Army Audit Agency have issued six reports that either discussed the CONCAP
    contract, advanced contract initiatives, or price negotiation memorandums.
    Unrestricted GAO reports can be accessed over the Internet at
    http://www.gao.gov. Unrestricted DoD IG reports can be accessed at

                                        58
                      FOR OFFICIAL USE ONLY
       http://www.dodig.mil/audit/reports. Unrestricted U.S. Army Audit Agency
       reports can be accessed at http://www.aaa.army.mil/reports.htm.

GAO
       GAO Report No. GAO-04-854, “Military Operations: DoD’s Extensive Use of
       Logistics Support Contracts Requires Strengthened Oversight,” July 19, 2004

       GAO Report No. GAO-04-869T, “Contract Management: Contracting for Iraq
       Reconstruction and for Global Logistics Support,” June 15, 2004

DoD IG
       DoD IG Report No. D-2007-079, “Performance-Based Service Contract for
       Environmental Services at the Navy Public Works Center, San Diego,
       California,” April 3, 2007

       DoD IG Report No. D-2007-038, “U.S. Army Corps of Engineers’ “Operation
       Blue Roof” Project in Response to Hurricane Katrina,” December 22, 2006

       DoD IG Report No. D-2006-061, “Source Selection Procedures for the Navy
       Construction Capabilities Contract,” March 3, 2006

Army
       U.S. Army Audit Agency Report No. A-2007-0016-FFD, “Debris Removal
       Contracts: U.S. Army Corps of Engineers,” November 9, 2006




                                         59
                       FOR OFFICIAL USE ONLY
Appendix B. Task Order Awards, Modifications,
and Technical Directions
Table B-1A. Task Order No. 2 Contract Award and Modifications
   Modification
Number     Date                                  Description                              Total
 Basic   9/17/2004 Damage assessment and debris removal                             $       600,000
   1     9/18/2004 Additional funding added for Hurricane Ivan emergency repairs          3,500,000
   2     9/20/2004 Statement of work added for stabilization and roof repairs-            5,000,000
                      temporary and permanent
   3     9/22/2004 Deletion of NAVFAC funding and addition of Commander Naval               -
                     Installations funding for Hurricane Ivan repairs
   4     9/27/2004 Additional funding added for stabilization efforts at NAS¹             1,200,000
                    Pensacola
   5     9/30/2004 Correction of housing debris removal in the line of accounting          203,201
                    for the scope
   6     9/30/2004 Addition of detailed housing assessments at NAS Pensacola               250,000
                    and Corry Station
   7     9/30/2004 Additional funds added for Phase II Corry Station and Saufley           205,858
                    stabilization
   8     10/1/2004 Additional funds added for stabilization at NAS Pensacola              6,000,000
   9     10/7/2004 Additional funds added for permanent interior repairs to                 468,000
                    Building 606
  10     10/7/2004 Additional funds added to make permanent repairs to Buildings          1,000,000
                    3901–3908 and 3910 (Navy Air Technical Training Center
                    barracks)
  11     10/7/2004 Additional funding added for continued stabilization                   3,000,000
  12     10/7/2004 Additional funds added for debris removal from the NAS                   367,200
                    Housing Complex Pensacola
  13     10/8/2004 Additional funds added for stabilization                               4,000,000
  14    10/15/2004 Additional funds added for stabilization at NAS Pensacola              2,000,000
  15    10/19/2004 Additional funds added for stabilization and permanent roof            9,000,000
                    repairs to Buildings 606 and 3910
  16    10/20/2004 Additional funds added for permanent roof repairs to                   3,850,000
                    Buildings 606 and 3910
  17     11/1/2004 Additional funds added for permanent repairs to                        2,000,000
                    Buildings 3901–3908 (Navy Air Technical Training Center
                    barracks)
  18    11/19/2004 Changing of the Defense Financial Accounting Service office              -
  19    11/23/2004 Funds added for additional repairs for exterior and interior           1,675,000
                    to Buildings 606, 3901–3908, and 3910
  20    12/14/2004 Funds added for additional interior and exterior repairs to            2,500,000
                    Buildings 3905, 3906, 3907, and 3908
 Total                                                                                  $46,819,259
 Note: See list of acronyms at the end of the appendix




                                                  60
                            FOR OFFICIAL USE ONLY
Table B-1B. Technical Directions for Task Order No. 2

Number    Date                                          Description                                     Est. Cost
  1    9/19/2004 Establish onsite field office to support 15 personnel by                                   -
                   September 22, 2004
  2    9/26/2004 Segregate all debris being collected and prepare a debris management plan                  -
  3    9/30/2004 Ensure no known cultural resource sites are disturbed                                      -
  4    9/30/2004 Provide ActivCard software and SmartCard readers                                           -
  5    9/30/2004 Perform troubleshooting, make repairs, and energize various mechanical                     -
                   systems within the NAS Pensacola region
  6    9/29/2004 Segregate and stage marketable trees                                                       -
  7    9/30/2004 Cease stabilization efforts in all family housing units at NAS                             -
  8    10/8/2004 Perform troubleshooting, make repairs, and energize various mechanical                     -
                   systems within the Naval Air Technical Training Center barracks
                   (not to exceed 50,000 per building)
   9        10/8/2004 Perform repairs to the interior of Building 606                                   $ 468,000
  10       10/22/2004 Remove asbestos-containing material                                                   -
  11       10/19/2004 Stop all dry-in and dry-out work on 35 facilities as of 1:00 p.m. on                  -
                        October 18, 2004
  12       10/22/2004 Cease organic debris removal efforts as of October 25, 2004                           -
  13       10/22/2004 Resume dehumidification at Quarters A; perform dry-in efforts                         -
                        on garage structure
  14       10/25/2004 Maintain 40,000/day or less burn rate for debris removal as of October 25, 2004       -
  15       10/25/2004 Provide permanent power to all trailers adjacent to Building 746                      -
  16       10/26/2004 Inspect, assess, and repair freight/passenger elevator in Building 603                -
  17       10/27/2004 Cease stabilization efforts in Building 631 as of October 27, 2004                    -
  18       10/27/2004 Continue dry-out efforts only on buildings with priority numbers 2–169 as of          -
                        October 27, 2004
  19       10/28/2004 Continue dry-out on 25 buildings                                                      -
  20       10/28/2004 Remove debris from intersection of John Towers Road and Taylor                        -
                        to Ski Beach Roads
  21       10/29/2004 Remove debris at Bayou Grande Marina and the outbound lane                           30,000
                        of the main bridge
  22        11/1/2004 Removal and replacement of missing unsound sealant at the four-                       -
                        corner brick parapet coping crack sealing in Building 606
  23        11/1/2004 Resume dry-out efforts at the Mess Steward outbuilding of Quarters A                  -
  24       11/5/2004 Remove tree stumps and fill holes at the Lighthouse Terrace housing area               -
  25        11/5/2004 Remove tree stumps from Quarters A only and fill holes at the                         -
                        Lighthouse Terrace housing area
 Note: See list of acronyms at the end of the appendix




                                                         61
                                FOR OFFICIAL USE ONLY
Table B-1B. Technical Directions for Task Order No. 2 (cont’d)
  26      11/10/2004 Relocate any furniture in Buildings 3901–3908 and 3910 for 60-day duration          -
  27      No date or description provided                                                                -
  28      11/18/2004 Continue using one dozer, one knuckle-boom truck, and crew to                       -
                         maintain mixed debris staging area through November 24, 2004
  29      11/18/2004 Provide temporary roof to Building 38                                               -
  30      11/18/2004 Stop all stabilization efforts in 83 facilities                                     -
  31      11/19/2004 Complete roof dry-in at Building 73                                                 -
  32      11/22/2004 Cease roof dry-in at Building 73 (Cancel TD 31)                                     -
  33      11/29/2004 Assess two passenger elevators (#1 and #2) in Building 3910 to determine            -
                          all necessary repair work to bring elevators to full working condition
  34       12/7/2004 Proceed with full interior painting in Building 3905                                -
  35       12/7/2004 Perform repairs to two passenger elevators (#3 and #4) in Building 3910             -
  36      12/17/2004 Provide six 45-passenger buses on December 17 and 18 from 0700–1700                 -
  37        1/7/2005 Perform necessary repairs to exterior lighting in the emergency                     -
                         exit stairwells for Building 3910
  38        1/7/2005 Perform necessary repairs to exterior lighting in the emergency exit stairwells     -
                         for Buildings 3901–3908
  39        1/7/2005 Perform necessary repairs to the four air handling units on the first floor         -
                         in Building 3910
  40       1/28/2005 Perform testing and necessary repair and/or replacement of all exterior            140,000
                         lighting in Naval Aviation Technical Training Center Complex;
                          construct alterations to Building 624
  41       2/23/2005 Proceed with refurbishment of Building 624 and relocation of furniture              -
  42      12/21/2004 Stop the re-caulking of the exteriors of the Naval Technical Training               -
                         Center barracks; provide caulking for buildings 3901–3908 and 3910
 Total                                                                                                 $638,000
 Note: See list of acronyms at the end of the appendix




                                                     62
                              FOR OFFICIAL USE ONLY
Table B-2A. Task Order No. 16 Contract Award and Modifications
   Modification
Number      Date                                Description                                    Total
 Basic   8/29/2005 Initial disaster response                                              $      150,000
   1     8/29/2005 Contract change from firm-fixed-price to cost-plus-award-fee                  -
   2     8/31/2005 Additional funds added for the restoration of the reserve assets            4,450,559
                    in the New Orleans area
   3      9/1/2005 Additional funds added for stabilization, debris removal, and                4,049,441
                        assessments at the NSA2 New Orleans, JRB3 New Orleans,
                        and other Navy installations in the south region
   4       9/3/2005    Additional funds added for stabilization, debris removal, and            7,800,000
                        assessments at NSA New Orleans, JRB New Orleans,
                        and other Navy installations in the south region
   5       9/4/2005    Additional funds added for support of Marines for                       10,000,000
                        stabilization, debris removal, and assessments at NSA
                        New Orleans, JRB New Orleans, and other Navy
                        installations in the south region
   6       9/6/2005    Deobligated funds used for stabilization, debris removal, and            (961,718)
                        assessments at NSA New Orleans, JRB New Orleans, and
                        other Navy installations in the south region
   7       9/13/2005   Suspension of Davis-Bacon Act wage determinations                          -
   8       9/26/2005   Additional funds added for continued hurricane efforts in the            3,000,000
                        New Orleans area
   9       9/30/2005   Additional funds added for continued hurricane efforts in the            4,138,739
                        New Orleans area
   10      9/30/2005   Additional funding added for specification requirements for               734,000
                        Building 30 and roof repair and replacement to Building 41
   11      10/7/2005   Additional funding added for specification requirement with             10,000,000
                        continued hurricane efforts in the New Orleans area
   12     10/12/2005   Reinstatement of Davis-Bacon Act wage determinations                       -
   13     10/14/2005   Additional funding added for continued Hurricane Katrina                11,300,000
                        recovery
   14     10/17/2005   Deobligated funds of $1,700,000 from delivery order 16,                (1,700,000)
                        of which $65,385 was an award fee
   15     10/21/2005   Additional funds added to the total delivery order for Hurricane         3,000,000
                        Katrina recovery
   16     10/26/2005   Additional funds added to the total delivery order for Hurricane        12,000,000
                        Katrina recovery
   17     10/27/2005   Clarification that Davis-Bacon Act wage determinations do                  -
                        apply to the entire performance period of the task order
   18      11/8/2005   Additional funds of $3,000,000 added for labor, material,                9,000,000
                        equipment, supervision, and quality control for travel trailers
                        and mobile homes at NAS and NSA New Orleans;
                        additional funds of $6,000,000 added for continued
                        Hurricane Katrina recovery
   19     11/16/2005   Additional funds added for continuation of Hurricane Katrina             1,000,000
                        recovery; Davis-Bacon Act wage determination correction
                        for modification number 12
   20     11/28/2005   Additional funds added for continuation of Hurricane Katrina             6,500,000
                        recovery efforts
  21       2/1/2006    Additional funds added for stabilization                                   500,000
 Total                                                                                        $84,961,021
 Note: See list of acronyms at the end of the appendix




                                                   63
                            FOR OFFICIAL USE ONLY
Table B-2B. Technical Directions for Task Order No. 16
Number       Date                                       Description                                      Est. Cost
  1        9/3/2005 Equip on-site field office                                                       $         85000
  2        9/4/2005 Repair primary power distribution system, install 5 one-megawatt                        400,000
                      generators and provide 2,000-man tent camp
   3       9/5/2005 Remove all food spoilage from food storage areas                                        200,000
   4       9/8/2005 Provide and maintain 100 port-a-lets for 90 days                                        270,000
   5       9/8/2005 Procure and install double-wide trailer for 8 months                                    200,000
   6      9/16/2005 Establish potable water emergency procedures                                            -
   7      9/18/2005 Provide two recreational vehicles, remove debris, repair roads,                         664,000
                      and other various tasks
   8      9/18/2005 Provide 300 meals for east and west NSA and relocate 15 port-o-lets                       8,000
   9      9/20/2005 Building 439 roof system repair and replacement                                         750,000
  10      9/29/2005 Ensure compliance with base solid waste management plan                                 156,000
  11      10/1/2005 Apply mold specification to all remaining facilities at NAS,                            -
                       JRB, and NSA (Canceled)
  12      10/2/2005 Provide two additional trailers/recreational vehicles (monthly)                            3,000
  13      10/6/2005 Modification to mold specification guidance                                             -
  14      10/7/2005 Implementation of microbial remediation plan                                          7,230,000
  15      10/7/2005 Implement applicable microbial remediation guidance                                     -
  16      10/7/2005 Additional microbial remediation guidance                                               -
  17      10/7/2005 Restore electrical power to mobile lab behind Building 50                                 10,000
  18     10/11/2005 Repair hot water heater, damaged brick wall, and                                          42,685
                      vent piping for Building 703
  19     10/13/2005 Clean asbestos roofing debris                                                            10,000
  20     10/19/2005 Repair and replace if necessary 2,000 linear foot chain link fencing                    200,000
                      and remove 50 stumps
  21     10/19/2005 Clean and remove all port-o-lets at NSA                                                 -
  22     10/23/2005 Replace chiller, controls, and hydronic specialties at Buildings 705 and 4;             185,000
                      remove fan coil in room 121 at Building 700
  23     10/24/2005 Complete dry-in/dry-out repairs to the galley by November 8, 2005                        65,000
  24     10/25/2005 Replace loose tiles in shower stalls on the 4th and 5th floors of                         5,000
                      Building H-100 by October 29, 2005
  25     10/28/2005 Repair two of the four overhead hanger doors in 2 weeks                                  68,375
  26     10/30/2005 Replace loose tiles in Buildings 703, 705, and 710 on 1st, 2nd, and 3rd floors            3,260
  27      11/2/2005 Complete utility connections to Child Development Center trailers by                    350,000
                      November 13, 2005
  28      11/3/2005 Complete site development for travel trailers and mobile homes by                     2,716,839
                      December 1, 2005
  29     Not Issued Establish storm water pollution prevention plan                                         -
  30      11/8/2005 Complete Hangar 3 dry-out (including mold remediation)                                  645,000
                      by November 18, 2005
 Note: See list of acronyms at the end of the appendix




                                                     64
                              FOR OFFICIAL USE ONLY
Table B-2B. Technical Directions for Task Order No. 16 (cont’d)
  31     11/10/2005 Complete all repairs to the roof of Building 601 by November 23, 2005          200,250
  32     11/10/2005 Complete dry-in efforts for Building 22 by November 18, 2005                    14,250
  33     11/10/2005 Complete roof replacement on Buildings 31, 41, and 197;                      1,500,000
                      vent replacement on Building 263 by December 31, 2005
  34     11/10/2005 Complete repairs to interior finishings on 4th and 5th floors of              250,000
                      Building 601 by November 23, 2005
  35     11/15/2005 Complete permanent repairs to Building 724 by November 23, 2005               225,000
  36     11/15/2005 Complete repairs to roof and interior finishes on Building 41 by               75,000
                      November 30, 2005
  37     11/16/2005 Complete repairs to air conditioner at Building 731 by November 23, 2005         4,000
  38     11/17/2005 Perform interior repairs to Building 2                                        350,000
  39     11/17/2005 Construct wood decking at Child Development Center trailers                   200,000
  40     12/16/2005 Perform dry-out in Building 101 and lay down carpet in Building 8              -
  41     12/28/2005 Install carpet and ceiling tiles at bowling alley                              -
  42                                                                                               -
  43      1/12/2006 Reassemble modular workstations and system furniture at                        -
                      Building 603 by January 27, 2006
  44      1/13/2006 Install 150A breakers and replace carpet in Building 102                        9,800
  45      1/14/2006 Repair mobile home electrical issues                                          187,285
  46       2/1/2006 Complete electrical work at mobile home park and repair                       200,000
                      plumbing and electrical work
  47       2/9/2006 Provide furniture for Building 771, Navy Lodge (Canceled)                       -
 Total                                                                                         $17,482,744
 Note: See list of acronyms at the end of the appendix




                                                  65
                            FOR OFFICIAL USE ONLY
Table B-3A. Task Order No. 17 Contract Award and Modifications
   Modification
 Number      Date                                  Description                              Total
  Basic   8/30/2005 Hurricane Katrina recovery in NAS Pascagoula, NAS Gulf Coast,         $12,500,000
                     and Stennis Space Center
   1       9/4/2005 Additional funds added for stabilization, debris removal, and           3,000,000
                     assessments at NAS Pascagoula, NAS Gulfport, Stennis Space
                     Center, and other Navy installations in the southeast region
   2      9/10/2005 Additional funds added for housing recovery in the Navy Gulf            1,000,000
                     Coast region
   3      9/13/2005 Suspension of the Davis-Bacon Act wage determinations                     -
   4      9/26/2005 Additional funds added for continued hurricane recovery efforts         3,000,000
                      in the Gulf region
   5      9/27/2005 Additional funds added for housing recovery in the Navy Gulf            3,434,170
                     Coast region
   6      9/28/2005 Additional funds added for dry-in and dry-out with medical/dental        106,000
                     Buildings 30 (Construction Battalion Center ) and 295
                     (Pascagoula)
   7      9/30/2005 Additional funds added and the incorporation of statements of           3,740,000
                     work for projects 5, 10, and 14 at the Naval Construction
                     Training Center
    8       9/30/2005 Additional funds added for specifications associated with              995,000
                       building; statement of work added for Buildings 295 and
                       296 for roof repairs and replacements
    9       9/30/2005 Additional funds added for stabilization in the Gulf Coast area;     33,565,296
                       statement of work added for roof repair/replacements at
                       Naval Construction Battalion Center, Gulfport; incorporation of
                       Performance Technical Specification Section B30 to task order
   10      10/12/2005 Reinstatement of Davis-Bacon Act wage determinations                    -
   11      10/27/2005 Clarification that Davis-Bacon Act wage determinations did apply        -
                       to the entire performance period
   12      11/3/2005 Additional funds added for continued Hurricane Katrina recovery        2,507,159
                       for housing in the Gulf Coast area, Mississippi
   13       11/4/2005 Reduction of funds for Hurricane Katrina recovery, Gulf Coast           (1,178)
                       area, Mississippi
   14      11/15/2005 Additional funds added for the continuation of hurricane recovery    33,000,000
                       efforts; correction to Davis-Bacon wage determination dates
   15        2/2/2005 Additional funding added for permanent roof repairs at Naval           500,000
                       Construction Training Center, Gulfport
   16       2/27/2006 Contractor’s change of address effective January 2006                   -
  Total                                                                                   $97,346,447
 Note: See list of acronyms at the end of the appendix




                                                         66
                                 FOR OFFICIAL USE ONLY
Table B-3B. Technical Directions for Task Order No. 17
Number       Date                                        Description                                  Est. Cost
  1        9/1/2005   Electrical distribution system repair, debris removal,                              -
                        dry-in and dry-out ; install four-megawatt generators
   2       9/3/2005   Equip on-site field office                                                          -
   3       9/3/2005   Pump out lift stations at Construction Battalion Center base                $        28,560
   4       9/4/2005   Dry-in, dry-out, pump out; repair roof for Building 118;                         1,099,051
                        add 12 rooms at Lakeside barracks for abatement
   5       9/4/2005   Perform utility survey at the pier, Pascagoula                                     407,669
   6       9/4/2005   Perform permanent repairs and roof replacement for Building 9322                 1,998,030
   7       9/6/2005   Assess and patch roofs in Sand Hill housing area; install generator;               228,590
                        provide 50 port-a-lets
  8       9/8/2005    Perform dry-in, dry-out of the 3rd floor in Locker House Building 3101               22,950
   9      9/9/2005    Install washers and dryers in warehouse (Canceled)                                  -
  10      9/9/2005    Replace traffic safety signs                                                         92,200
  11      9/10/2005   Provide operator/crane capable of removing about 60 tons in a                        10,100
                        50-foot radius
  12      9/10/2005   Complete shower facilities for Construction Battalion Center                       191,000
  13      9/12/2005   Restore perimeter fence to a pre-hurricane condition;                              235,820
                        provide permanent roof repairs at Sand Hill housing
  14      9/16/2005   Repair fence for Building 397; repair structural damage to                         421,432
                        Building 313; repair walls of Building 31
  15      9/17/2005   Repair Building 69 roof and air compressor;                                        900,000
                        complete construction of trailer park in 10–14 days
  16      9/18/2005   Provide furnished office trailer for 38 office personnel                           146,400
  17      9/19/2005   Perform dry-in and install overhead doors;                                         613,054
                        complete work for request for information
  18      9/22/2005   Demolish the fencing, bleachers, and lights at the tennis court                     14,000
  19      9/24/2005   Repair paint booth; complete remaining repairs on                                4,700,000
                        all housing and barrack quarters
  20      9/24/2005   Repair the armory                                                                    5,800
  21      9/26/2005   Dispose of refrigerators at Pascagoula and Lakeside housing                          3,100
  22      9/26/2005   Provide additional furnished office trailer at Stennis                             150,000
  23      9/27/2005   Provide furnished office trailer at Gulfport                                        40,000
  24      9/29/2005   Evaluation of three separate sites for insulation                                    7,500
                        of manufactured housing units
  25      10/4/2005   Provide site prep for housing units; insulate all domestic                         555,500
                        water supply piping
  26      10/5/2005   Provide site furnishings, fencing for mobile home parks, gravel rock,            1,105,500
                        stump grinding, and roof ventilators; repair utility automation network
  27      10/7/2005   Provide office space for eight people at Building 1100                               49,500
  28     10/7/2005    Provide clarification to the scopes of work for roof replacements                   -
  29     10/12/2005   Provide further clarification to scopes of work for roof replacements               -
  30     10/15/2005   Remove carbon dioxide system                                                          5,800
 Note: See list of acronyms at the end of the appendix




                                                  67
                            FOR OFFICIAL USE ONLY
Table B-3B. Technical Directions for Task Order No. 17 (cont’d)
   31    10/17/2005 Delete Building 385 at the Naval Training Center Complex                    -
   32    10/20/2005 Delete 10 buildings                                                         -
   33    10/21/2005 Site prep for installation of nine modular facilities at                        61,000
                      Child Development Center
   34    10/23/2005 Complete repairs to Building 335 Youth Center                              100,350
   35    10/24/2005 Delete air units for Building 70 scope                                     -
   36    10/25/2005 Repair fencing, test utility at Picayune, and repair siding                261,380
                      on Building 429
   37    10/27/2005 Ensure remaining building dry-outs are in accordance                        -
                      with mold specification
   38     11/3/2005 Repair 47 carports and 48 sheds at Ladd Circle;                            363,000
   39                 install electricity metering equipment for public works sites 2           14,300
                      and 3, Mobile Home Parks, Tidal Serge, and Hurricane Alley
   40     11/8/2005 Perform mold assessment for bedrooms only in Barracks 45                         4,550
   41     11/8/2005 Replace Building 381 roof; provide clarification to                         -
                      Naval Construction Training Center
   42    11/11/2005 Replace a not-to-exceed amount of 1,000 square feet                         -
                      of sheet rock, floor coverings, and/or ceiling tiles
   43    11/14/2005 Install and finish oak baseboards for Building 68;                              21,988
                      replace fixtures, all lights, and overhead doors
   44    11/15/2005 Provide utility hook-ups at Child Development Center;                           20,900
                      adjust occupational safety requirements for four buildings;
                      perform roof work on Building 16
   45    11/17/2005 Remove pavilions and floors in Buildings 178 and 68;                            83,230
                      provide utility hook-ups; perform temporary commissary repairs
   46    11/18/2005 Repair sidewalk damage; construct ramps; and                                    71,500
                      install grease trap at Child Development Center
   47    11/18/2005 Provide an estimate and statement of work for all                        24,210,000
                      Naval Construction Battalion Center buildings
   48    11/21/2005 Provide 8-foot master backflow preventer; modify water supply system         27,800
   49    11/23/2005 Revise roof package with 12 buildings                                     6,799,991
   50    11/26/2005 Delete Buildings 67 and 69; provide water, sewer, and all utility           334,000
                      connections for trailers; make repairs to street and parking lights
   51     12/1/2005 Delete gutter and downspout work for Buildings 67 and 69;                 1,231,350
                      install a foundation; complete roof repairs for 13 buildings;
                      perform remediation and repairs to Building 397
   52     12/7/2005 Complete dry-in and dry-out for Building 9                                  -
   53     12/7/2005 Replace exterior church sign marquee for Building 366, chapel                 7,440
   54     12/9/2005 Revise roof work for Building 118                                          (37,200)
   55    12/12/2005 Complete investigation of leak source in Building 114                        44,000
   56    12/19/2005 Re-glaze 13 windows and replace the glass in three interior doors             9,460
   57      2/2/2006 Remove one pole foundation in the parking area of Building 320                1,800
   58     2/16/2006 Connect all interior telephone wires to the outside distribution                700
                      box only at Liberty Center
 Total                                                                                      $46,663,095
Acronyms
  ¹NAS Naval Air Station
  ² NSA Naval Support Activity
  ³JRB   Joint Reserve Base




                                                68
                           FOR OFFICIAL USE ONLY
                             Appendix C. Subcontracts Reviewed
                              Task                                                                                                                      Method for
                              Order             Subcontract                                             Description of     Contract Contract Value   Establishing Price
                             Number              Number                         Contractor                 Service          Type     April 2006       Reasonableness


                               2                                    CMC, Inc.                       Roofing                T&M1       $ 3,300,000      Competition
                                                                                                                                2
                               2                                    Carothers, Inc.                 Building Restoration    FFP         3,963,534      Competition
FOR OFFICIAL USE ONLY




                               2                                    BMS Catastrophe                 Building Restoration    T&M         3,987,984      Competition
                               2                                    Cleveland Construction          Building Restoration    FFP         3,867,921      Competition
                               2                                    T.F.R. Enterprises, Inc.        Debris Removal          T&M         8,700,000      Competition
                               2                                    The Young Group                 Roofing                 T&M         3,100,000      Competition
                               2                                    American Roofing                Roofing                 T&M         1,177,169      Competition
                               2                                    Cram Roofing                    Roofing                 T&M         1,236,289      Competition
                                      Subtotal                                                                                         29,332,897
                        69




                               16                                   LJC Defense Contracting         Building Restoration    T&M         3,249,556      Competition
                               16                                   IKBI Incorporated               Building Restoration    T&M        12,000,000      Competition
                                      Subtotal                                                                                         15,249,556
                               17                                   Storm Reconstruction Services   Debris Removal          T&M         2,656,143      Competition
                               17                                   TESI Contracting                Roofing                 T&M         1,500,000      Competition
                               17                                   T.F.R. Enterprises, Inc.        Debris Removal          T&M        14,713,000      Competition
                               17                                   The Young Group                 Roofing                 T&M        16,000,000      Competition
                               17                                   Punum Roofing                   Roofing                 T&M         1,063,000      Competition
                               17                                   BMS Catastrophe                 Building Restoration    T&M        39,500,000      Competition
                                      Subtotal                                                                                         75,432,143
                                      Competition Total                                                                              $120,014,596
                                      Acronyms
                                      1
                                          T&M Time and Materials
                                      2
                                          FFP    Firm-Fixed-Price
                                          Subcontracts Reviewed (cont’d)
                                                                                                                                               Contract Value
                                           T.O.          Subcontract                                             Description of     Contract       April        Method for Establishing
                                          Number          Number                      Contractor                    Service          Type          2006          Price Reasonableness
DRAFT




                                                          :
                                            16                             Dillard Smith Construction        Utility Repair          T&M           2,000,000       Market Research
                                            16                             Shaw Environmental                Utility Repair          T&M           3,100,000       Market Research
                                                   Subtotal                                                                                        5,100,000
    FOR




                                            17                             LVI Environmental Services        Building Restoration    T&M          18,800,000       Market Research
      REPORT




                                            17                             Punum Roofing                     Roofing                 T&M           2,300,000       Market Research
                                            17                             Punum Roofing                     Roofing                 T&M           1,346,000       Market Research
        OFFICIAL




                                                                                                                                                                                          DRAFT REPORT
                                            17                             American Roofing                  Roofing                 T&M           7,621,172       Market Research
                                            17                             TESI Contracting                  Utility Repair          T&M           1,257,065       Market Research
                                            17                             Electrical Apparatus Repair Co.   Utility Repair          T&M           1,035,469       Market Research
                                            17                             Gulf Electric                     Utility Repair          T&M           5,169,500       Market Research
                                                   Subtotal                                                                                       37,529,206
                                     70
              FOR




                                                   Market Research Total                                                                         $42,629,206
                 USE
                                     70




                                            2                              Belfor USA                        Building Restoration    T&M         $ 8,230,000            Other
                   OFFICIAL




                                                          :
                                            16                             BE&K Government Group             Building Restoration    T&M          22,000,000            Other
                     ONLY USE ONLY




                                            16                             BE&K Government Group             Building Restoration    T&M           1,200,000            Other
                                            16                             Alaska Structures                 Misc - A/C units        FFP           1,089,528            Other
                                            16                             Commercial Marketing Corp.        Misc - Food Services    FFP           8,927,500            Other
                                                   Subtotal                                                                                       33,217,028
                                            17                             TESI Contracting                  Roofing                 FFP           1,034,330            Other
                                            17                             Environmental Chemical Corp.      Building Restoration    T&M          29,060,000            Other
                                            17                             RB Ailing                         Roofing                 T&M           1,802,600            Other
                                            17                             Construction Services, Inc.       Roofing                 FFP           6,141,778            Other
                                                   Subtotal                                                                                       38,038,708
                                                   Inadequate Total                                                                              $79,485,736
Appendix D. Award Fee Plan




                    71
           FOR OFFICIAL USE ONLY
Award Fee Plan (cont’d)




                          72
               FOR OFFICIAL USE ONLY
Award Fee Plan (cont’d)




                          73
               FOR OFFICIAL USE ONLY
Award Fee Plan (cont’d)




                          74
               FOR OFFICIAL USE ONLY
Award Fee Plan (cont’d)




                          75
               FOR OFFICIAL USE ONLY
Award Fee Plan (cont’d)




                          76
               FOR OFFICIAL USE ONLY
Award Fee Plan (cont’d)




                          77
               FOR OFFICIAL USE ONLY
Award Fee Plan (cont’d)




                          78
               FOR OFFICIAL USE ONLY
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
   Director, Defense Procurement and Acquisition Policy
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Navy
Assistant Secretary of the Navy (Research, Development and Acquisition)
Naval Inspector General
Auditor General, Department of the Navy
Commanding Officer, Naval Air Station Joint Reserve Base New Orleans
Commanding Officer, Naval Air Station Pensacola
Commander, Naval Facilities Engineering Command
  Commander, Naval Facilities Engineering Command Atlantic
  Commanding Officer, Naval Facilities Engineering Command Southeast
Commanding Officer, Naval Support Activity New Orleans
Commander, Navy Installations Command

Combatant Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency

Non-Defense Federal Organization
Office of Management and Budget




                                          79
                        FOR OFFICIAL USE ONLY
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Finance, and Accountability,
  Committee on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform




                                        80
                       FOR OFFICIAL USE ONLY
Naval Facilities Engineering Command
Comments




                     81
            FOR OFFICIAL USE ONLY
         82
FOR OFFICIAL USE ONLY
         83
FOR OFFICIAL USE ONLY
         84
FOR OFFICIAL USE ONLY
         85
FOR OFFICIAL USE ONLY
         86
FOR OFFICIAL USE ONLY
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.


Richard B. Jolliffe
Henry F. Kleinknecht
Patrick J. Nix
Kevin B. Palmer
Jason T. Steinhart
Jillian M. Lalonde
Quentin J. Dorsey
Alice M. Soto-Ruiz
Meredith H. Johnson
